<html>
<title> - ROLE OF FAMILY-BASED IMMIGRATION IN THE U.S. IMMIGRATION SYSTEM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


    ROLE OF FAMILY-BASED IMMIGRATION IN THE U.S. IMMIGRATION SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2007

                               __________

                           Serial No. 110-26

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 -------

                     U.S. GOVERNMENT PRINTING OFFICE

35-242 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001














                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel
                    George Fishman, Minority Counsel






























                            C O N T E N T S

                              ----------                              

                              MAY 8, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     6

                               WITNESSES

The Honorable Phil Gingrey, a Representative in Congress from the 
  State of Georgia
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Ms. Harriet Duleep, Ph.D., Research Professor of Public Policy, 
  Thomas Jefferson Program in Public Policy, The College of 
  William and Mary
  Oral Testimony.................................................    12
  Prepared Statement.............................................    15
Mr. Bill Ong Hing, Professor of Law and Asian American Studies, 
  University of California-Davis
  Oral Testimony.................................................    23
  Prepared Statement.............................................    24
Mr. Stuart Anderson, Executive Director, National Foundation for 
  American Policy
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     2
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     5
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     7

                                APPENDIX
               Material Submitted for the Hearing Record

``Chain Migration Under Current U.S. Law: The Potential Impact of 
  a Single Employment-Based Immigrant'' Chart produced by 
  NumbersUSA, submitted to the record by the Honorable Phil 
  Gingrey, a Representative in Congress from the State of Georgia    72
``Review and Outlook: Immigration Spring,'' an editorial in the 
  Wall Street Journal, May 2, 2007...............................    76
Prepared Statement of Members of American Families United and 
  United Families, on Family Immigration.........................    78
Prepared Statement on Interfaith Family Immigration by American 
  Friends Service Committee, et al...............................   111
Prepared Statement of Leslye Orloff, Director and Associate Vice 
  President of the Immigrant Women Program at Legal Momentum, 
  also representing the National Network to End Violence Against 
  Immigrant Women................................................   113
Letter from the Lutheran Immigration and Refugee Service to the 
  Honorable Zoe Lofgren, Chairwoman, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..   118
Prepared Statement of Karen K. Narasaki, President & Executive 
  Director, Asian American Justice Center on ``The Importance of 
  Family-Based Immigration to American Society and the Economy''.   120
``Admissions of Lawful Permanent Residents (all categories) 2001-
  2005'' compiled by the Congressional Research Service, 
  submitted to the record by the Honorable Steve King, Ranking 
  Member, Subcommittee on Immigration, Citizenship, Refugees, 
  Border Security, and International Law.........................   129
``Family-Based Admissions 2006,'' published by the U.S. 
  Department of Homeland Security, submitted to the record by the 
  Honorable Steve King, Ranking Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................   131
Responses to Post-Hearing Questions from the Honorable Phil 
  Gingrey, a Representative in Congress from the State of Georgia   132
Responses to Post-Hearing Questions from Harriet Duleep, Ph.D., 
  Research Professor of Public Policy, Thomas Jefferson Program 
  in Public Policy, The College of William and Mary..............   135
Responses to Post-Hearing Questions from Bill Ong Hing, Professor 
  of Law and Asian American Studies, University of California-
  Davis..........................................................   137
Response to Post-Hearing Question from Stuart Anderson, Executive 
  Director, National Foundation for American Policy..............   138






















 
    ROLE OF FAMILY-BASED IMMIGRATION IN THE U.S. IMMIGRATION SYSTEM

                              ----------                              


                          TUESDAY, MAY 8, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:37 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Waters, Delahunt, Sanchez, Conyers, King, 
Gallegly, Goodlatte, Lungren, and Gohmert.
    Staff present: Ur Mendoza Jaddou, Majority Chief Counsel; 
J. Traci Hong, Majority Counsel; George Fishman, Minority 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public who are here 
today for the Subcommittee's eighth hearing on comprehensive 
immigration reform.
    At our hearings on comprehensive immigration reform, many 
of our witnesses, both majority and minority, have stated that 
our immigration system should serve the interests of the 
Nation, and we agree with that.
    Some, including the Bush administration, have suggested 
that family-based immigration, as it is currently codified in 
the immigration law, does not benefit the Nation.
    They assume that family immigrants do not serve the Nation 
because such immigrants come to the United States because of 
their family ties rather than a demonstrated capacity to 
contribute economically to our country.
    They argue that we should eliminate most forms of family-
based immigration and replace it with an immigration system 
that focuses solely on the economic needs of our Nation, either 
through an enhanced employment-based preference system or a 
point system.
    Under our current immigration system, 39 percent of 
immigrants become legal permanent residents based on their 
status as unmarried minor children, spouses, or parents of U.S. 
citizens.
    Another 19 percent become legal permanent residents based 
upon their status as adult sons and daughters or siblings of 
U.S. citizens, or spouses and unmarried children of legal 
permanent residents.
    To help us determine whether family-based immigration has, 
in fact, served the interest of our Nation, today we will 
examine the role that family-based immigrants have played in 
our economy and society, particularly since the 1965 
Immigration Act, which emphasized the importance of family 
reunification as a bedrock principle of our immigration system.
    A review of scholarly research by labor economists and 
sociologists shows that family immigrants make important and 
unique contributions to the U.S. economy and society.
    The research shows that family-based immigrants provide the 
United States with flexible workers who are willing and able to 
learn new skills to meet the needs of the U.S. labor market.
    In addition, research indicates that family-based 
immigrants contribute to the development of small and large 
businesses that would not have been created without their 
presence in the United States.
    Our witnesses today will also help us to understand the 
role that families play in fueling the economic prosperity of 
the U.S. citizen and legal permanent resident family members 
who sponsor their immigrant petitions.
    Not only is it an American value and a pro-family value to 
keep U.S. citizen and legal permanent resident families 
together, it is in the economic interest of the United States.
    Thank you again to our distinguished witnesses for being 
here today to help us sort through a complex and very important 
issue for the American economy and our society.
    I would now recognize our distinguished Ranking Member, 
minority Member, Steve King, for his opening statement.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's eighth 
hearing on comprehensive immigration reform.
    At our hearings on comprehensive immigration reform, many of our 
witnesses, both majority and minority, have rightly stated that our 
immigration system should serve the interests of the nation.
    Some, including the Bush Administration, have suggested that 
family-based immigration, as it is currently codified in the 
immigration law, does not benefit the nation. They assume that family 
immigrants do not serve the nation because such immigrants come to the 
United States because of their family ties, rather than a demonstrated 
capacity to contribute economically to our country. They argue that we 
should eliminate most forms of family-based immigration and replace it 
with an immigration system that focuses solely upon the economic needs 
of our nation, either through an enhanced employment-based preference 
system or a points system.
    Under our current immigration system, 39% of immigrants become 
legal permanent residents based upon their status as unmarried minor 
children, spouses, or parents of U.S. citizens. Another 19% become 
legal permanent residents based upon their status as adult sons and 
daughters or siblings of U.S. citizens, or spouses and unmarried 
children of legal permanent residents.
    To help us determine whether family-based immigration has in fact 
served the interests of our nation, today we will examine the role that 
family-based immigrants have played in our economy and society, 
particularly since the 1965 Immigration Act which emphasized the 
importance of family reunification as a bedrock principle of our 
immigration system.
    A review of scholarly research by labor economists and sociologists 
shows that family immigrants make important and unique contributions to 
the U.S. economy and society. The research shows that family-based 
immigrants provide the United States with flexible workers who are 
willing and able to learn new skills to meet the needs of the U.S. 
labor market. In addition, research indicates that family-based 
immigrants contribute to the development of small and large businesses 
that would not have been created without their presence in the U.S.
    Our witnesses today will also help us to understand the role that 
families play in fueling the economic prosperity of the U.S. citizen 
and legal permanent resident family members who sponsor their 
immigration petitions.
    Not only is it an American value and a pro-family value to keep 
U.S. citizen and legal permanent resident families together, it is in 
the economic interest of the United States.
    Thank you again to our distinguished witnesses for being here today 
to help us sort through a complex and very important issue for the 
American economy and our society.

    Mr. King. Thank you, Madam Chair, and also Chairman 
Conyers, and I appreciate you holding this hearing.
    And I thank all the witnesses for being willing to be here 
and, you know, present yourselves before this process that we 
have.
    As we address our expansive family-based policy, I am 
mindful of the fact that many of us in this room are the 
descendants of immigrants who came to these shores with little 
or nothing besides their skills and enthusiasm.
    With much hard work and perseverance, they contributed 
greatly to the building of this country. We are their success 
stories.
    I also point out that all nations are nations of 
immigrants, and the same stories exist in many of the other 
countries, although we have a certain spirit here that is 
exclusive, I believe, to the experience of the rest of the 
world.
    But because we cannot admit all who desire to make America 
their home, we must make difficult choices. Last year, the 
United States granted permanent residence to 1,122,000 aliens, 
the highest level since 1907.
    And if you will remember, 1907, just last month was the 
centennial anniversary of the highest day at Ellis Island, 
where 11,747 immigrants were processed through there on that 
day last month on the 17th of April.
    The vast majority of the American people have consistently 
said that they don't want higher immigration levels.
    In 1965, legislation was passed with the laudable goal of 
eliminating national origin discrimination from our immigration 
policy. The 1965 act made family reunification the cornerstone 
of our immigration policy. It remains so to this day.
    In addition to promoting the unity of the nuclear family, 
the 1965 act also extended immigration benefits to other 
categories of family members, including the sons and daughters 
of United States citizens who, either because of age or 
marriage, are no longer dependents.
    The adult siblings of the United States citizens and the 
unmarried adult sons and daughters of unlawful permanent 
residents were also included.
    In testimony before the Senate Immigration Subcommittee on 
February 10th, 1965, Myra C. Hacker from the New Jersey 
Coalition urged that, ``the hidden mathematics of the bill 
should be made clear to the public so that they may tell their 
Congressmen how they feel about providing jobs, schools, homes, 
security against want, citizen education, et cetera for an 
indeterminately enormous number of aliens.'' That was 1965.
    But at the same hearing, Senator Kennedy reassured the 
Committee that immigration levels after the 1965 bill would 
remain substantially the same.
    There isn't any basis to defend that statement of Senator 
Kennedy's today, but he is advocating strongly to do the same 
thing again in 2007 that he was part of in 1965, same 
rationale, and I will predict the same result if he gets his 
way.
    What happened was that an exponentially increasing wave of 
chain migration was set in motion. Through the 1970's and 
1980's, the prior average of 230,000 new immigrants per year 
more than doubled, to in excess of 500,000.
    Now, in the 21st century, we are admitting more than a 
million new immigrants a year--as I said, 1,122,000 last year--
and that is legal.
    During these decades, immigration contributed a majority of 
total U.S. population growth, and more than half of the 
infrastructure and schools that were built were built to 
accommodate immigrants.
    After extensive study of our family-based immigration 
scheme, the Barbara Jordan-led U.S. Commission on Immigration 
Reform concluded in 1995 that it was time to shift our 
priorities, and they recommended that they focus on uniting the 
nuclear families and attracting skilled workers.
    The commission advised unless there is a compelling 
national interest to do otherwise, immigrants should be chosen 
on the basis of the skills they contribute to the U.S. economy.
    I agree with Barbara Jordan that reuniting a nuclear family 
with a sponsor who played by the rules and came here the right 
way is such a compelling national interest, and I agree that 
bringing in their adult children and siblings is not.
    In fact, of the entire pie chart of our immigration, we 
have testimony in prior hearings that demonstrates that as much 
as 89 percent and perhaps as much as 93 percent of our legal 
immigration is based on humanitarian reasons, and as little as 
7 percent to 11 percent is based upon skills or merit.
    NumbersUSA estimates that the admission of a single lawful 
permanent resident under our current law can hypothetically 
lead to the eventual immigration of hundreds of relatives. This 
lengthy chain of migration cannot be justified.
    While nuclear families should be united, we need to 
eliminate other family preference categories and refocus our 
priorities on those who possess the education and skills we 
need to be competitive in a global economy.
    We should not reserve so many of our immigrant visas for 
aliens whose only attribute is that they happen to be related 
to a U.S. citizen or permanent resident.
    Last year, 46,923 non-dependent sons and daughters were 
admitted along with 63,255 siblings. Another 120,000 slots were 
given to the parents of United States citizens. This means that 
232,619 of the 803,000 family-based immigrants in 2006 were not 
spouses or minor children.
    I also submit that if the sibling and adult children 
categories are eliminated, then justification for an unlimited 
parent category also diminishes.
    I recognize that we have good witnesses before this panel, 
and I also recognize that the Honorable Dr. Congressman Gingrey 
is here to talk about the family reunification that has been 
part of the history and make a recommendation on what he sees 
would be best in the future.
    So I will ask unanimous consent to introduce the rest of my 
testimony into the record so that we may be able to get forward 
with the testimony of the witnesses.
    And I would yield back.
    [The prepared statement of Mr. King follows:]
  Prepared Statement of the Honorable Steve King, a Representative in 
 Congress from the State of Iowa, and Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Madame Chairwoman, as we address our expansive family-based policy, 
I am mindful of the fact that many of us in this room are the 
descendants of immigrants who came to these shores with little or 
nothing besides their skills and enthusiasm. With much hard work and 
perseverance they contributed greatly to the building of this country. 
We are their success stories.
    However, because we cannot admit all who desire to make America 
their home, we must make difficult choices. Last year, we granted 
permanent residence to close to 1.3 million aliens, the highest level 
since 1907. The vast majority of the American people have consistently 
said that they don't want higher immigration levels.
    In 1965, legislation was passed with the laudable goal of 
eliminating national origin discrimination from our immigration policy. 
The 1965 Act made family unification the cornerstone of our immigration 
policy. It remains so to this day.
    In addition to promoting the unity of the nuclear family, the 1965 
Act also extended immigration benefits to other categories of family 
members, including the sons and daughters of United States citizens who 
(either because of age or marriage) are no longer dependents, the adult 
siblings of United States citizens, and the unmarried adult sons and 
daughters of lawful permanent residents.
    In testimony before the Senate immigration subcommittee on February 
10, 1965, Myra C. Hacker from the New Jersey Coalition, urged that the 
``hidden mathematics of the bill should be made clear to the public so 
that they may tell their Congressman how they feel about providing 
jobs, schools, homes, security against want, citizen education . . . 
for an indeterminately enormous number of aliens.''
    At the same hearing, Senator Kennedy reassured the committee that 
immigration levels after the 1965 bill would remain substantially the 
same.
    What happened was that an exponentially increasing wave of chain 
migration was set in motion. Through the 70s and 80s, the prior average 
of 230,000 new immigrants per year more than doubled to in excess of 
500,000. Now, in the 21st Century, we are admitting more than a million 
new immigrants a year. During these decades, immigration contributed a 
majority of total U.S. population growth, and more than half of the 
infrastructure and schools that were built were built to accommodate 
immigrants.
    After extensive study of our family-based immigration scheme, the 
Barbara Jordan-led U.S. Commission on Immigration Reform concluded in 
1995 that it was time to shift our priorities, and recommended that 
they focus on uniting the nuclear families and attracting skilled 
workers. The Commission advised: ``unless there is a compelling 
national interest to do otherwise, immigrants should be chosen on the 
basis of the skills they contribute to the U.S. economy.'' I agree with 
Barbara Jordan that reuniting a nuclear family member with a sponsor 
who played by the rules and came here the right way is such a 
compelling national interest-and I agree that bringing in their adult 
children and siblings is not.
    Numbers USA estimates that the admission of a single lawful 
permanent resident under our current law can hypothetically lead to the 
eventual immigration of hundreds of relatives.
    This lengthy chain of migration cannot be justified. While nuclear 
families should be united, we need to eliminate other family preference 
categories and refocus our priorities on those who possess the 
education and skills we need to be competitive in a global economy. We 
should not reserve so many of our immigrant visas for aliens whose only 
attribute is that they happen to be related to a U.S. citizen or 
permanent resident.
    Last year, 46,923 non-dependent sons and daughters were admitted, 
along with 63,255 siblings. Another 120,441 slots were given to the 
parents of United States citizens. This means that 232,619 of the 
803,335 family-based immigrants in 2006 were not spouses or minor 
children. I also submit that if the sibling and adult children 
categories are eliminated, then justification for an unlimited parent 
category also diminishes, as it becomes less likely that an aging 
parent who remains in the home country will be without a son, daughter, 
or adult grandchild there to care for him or her.
    Access to, and improvements in, telecommunications and travel have 
changed the way people from all economic sectors remain close to their 
families. The world is smaller. Many of us in this hearing room have 
made our own difficult choices about education, work, or other life 
opportunities that require us to live far from our parents, adult 
children, and siblings; yet we maintain a close relationship with them 
through e-mail, phone calls, and visits. It is not unreasonable to 
expect aliens who are not part of the nuclear family of a citizen or a 
lawful permanent resident, and who do not qualify for a skills-based 
visa, to do the same. In today's world, keeping in touch with a sibling 
who lives on the other coast of the USA is little different than 
keeping in touch with a sibling in England or Malaysia.
    There is a backlog of over three million aliens who have been 
approved for family-preference visas, almost half of whom are the 
brothers and sisters of U.S. citizens. This backlog will only grow in 
the future, with individuals sometimes waiting decades for green cards. 
Unless we are going to drastically increase legal immigration, this is 
an untenable situation. It creates a sense of entitlement and only 
encourages illegal immigration.

    Ms. Lofgren. Without objection.
    I would now be pleased to recognize the Chairman of the 
full Committee, Congressman Conyers, Chairman Conyers, for his 
opening statement.
    Mr. Conyers. Thank you, Chairwoman Lofgren and this dynamic 
Subcommittee that is working so hard.
    I join in welcoming Dr. Gingrey, with whom I have the 
pleasure of working on a number of issues and seeing him 
regularly, and the witnesses, too, the other witnesses.
    This is an important part of forming a new immigration 
reform. What do we do with the family-based immigration system? 
We have three options.
    One, we can abandon our system. It would ignore the 
realities of people's lives and the values of the country.
    Two, we could maintain it without change. But the problem 
there is that there are tremendous backlogs that have split 
families apart under the current system. And I think we owe a 
responsibility to deal with it.
    Or three, we could improve the family-based immigration 
system, using comprehensive reform to remove those impediments 
to immigration so that people could come to the United States 
and join their families through a wide variety of programs.
    Now, we all know that. We are a Nation of immigrants. So 
this isn't some new theory that is being developed. We want to 
build on and improve where we are.
    Now, while an employment-based system might respond to 
short-term economic needs, it really undermines the core 
humanitarian value of family unification.
    A family-based immigration system isn't just feel good, or 
doing the right thing or being nice. It has long been a central 
tenet of our Nation's immigration policy, recognizing 
immigrants are first and foremost people who are not just 
motivated because of economic concerns but also by a desire to 
take care of their families. And by harnessing that motivation, 
we can harness all that is good about immigration.
    And as my friend, the Ranking Member of this Subcommittee, 
Steve King, has frequently asserted, the family is the backbone 
of this Nation. Couldn't agree with you more, Mr. Ranking 
Member. Immigrant families have strengthened the country 
immeasurably, and we should support them.
    The 1965 immigration law, now, rejected previous quota 
systems that had long discriminated against people of color and 
persons from the developing world. It was a dismal part of our 
policy. And so instead, we have moved to a system that supports 
family unification.
    Now, what do families provide? Stability and values. The 
benefit of an immigrant who is in the United States with his 
wife and children is a stable, contributing member of the 
community.
    The parents who have their children living with them can 
better inculcate them with American values in a supportive 
environment. And they provide the entrepreneurial spirit needed 
to stimulate economic growth in our communities.
    And as we will undoubtedly hear from this excellent panel 
today, family-based immigration promotes, among other positive 
developments, it stimulates the establishment of small 
businesses. These immigrants often find niches in American 
economic systems that have not been filled or could not be 
filled because of lack of skills, language, or lack of access 
to capital.
    Now, these small businesses revitalize our urban and rural 
communities, and my hometown is an example of this, where, in 
southeastern Michigan, we went from 383 small Hispanic 
businesses in 2002 to 955. It is just one example of some of 
the benefits of family-based immigration.
    And I yield back the balance of my time. Thank you.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Over the course of the National debate on immigration reform, some 
have suggested that we should abandon our traditional reliance on a 
family-based immigration system and replace it with one that is solely 
based on the needs of employers.
    We seem to have three options. We could abandon our system, but we 
would then ignore the realities of people's lives and the values of our 
country. We could maintain it without change, but there are tremendous 
backlogs that split families apart under the current system. Or we 
could improve it, using comprehensive reform to remove impediments to 
immigration so that people could come to the United States and join 
their families through a wide variety of programs.
    While an employment-based system may respond to short-term economic 
needs, it could undermine the core humanitarian value of family 
unification. A family-based immigration system is not just a ``feel-
good'' policy. It has long been the central tenant of our Nation's 
immigration policy recognizing that immigrants are first and foremost 
people who are motivated not only because of economic concerns, but by 
a desire to take care of their families.
    By harnessing that motivation, we can harness all that is good 
about immigration. As my colleague, the Ranking Member of this 
Subcommittee, has himself stated, the family is the ``backbone of this 
nation.'' \1\
---------------------------------------------------------------------------
    \1\Press Release, ``King Hosts Conference on Civic Involvement for 
Iowa Faith Community,'' 
August 17, 2006 http://www.house.gov/list/press/ia05_king/
PRFaithandFreedomConference 081706.html
---------------------------------------------------------------------------
    I agree with Mr. King wholeheartedly. Immigrant families have 
strengthened this country immeasurably, and we should support them. The 
1965 Immigration Law rejected previous quota systems that discriminated 
against people of color and persons from the developing world. Instead, 
we moved to a system that supports family unification instead.
    What do families provide? Stability and values. Let me mention just 
a few.

        An immigrant who is in the United States with his wife and 
        children is a stable, contributing member of the community.

        The parents, who have their children living with them, can 
        better inculcate them with American values in a supportive 
        environment.

        And, they provide the entrepreneurial spirit needed to 
        stimulate economic growth in our communities.

    As we will undoubtedly hear from our witnesses today, family-based 
immigration promotes, among other positive developments, stimulates the 
establishment of small businesses. These immigrants often find niches 
that American businesses have not filled or could not fill because of 
lack of skills, language, or lack of access to capital. These small 
businesses, in turn, revitalize our urban and rural communities by 
providing jobs and encouraging development of other resources.
    My hometown is an example of this. Every five years, the Census 
Bureau releases in-depth economic studies. For example, Southeastern 
Michigan in 2002 experienced an increase from 383 to 955 Hispanic-owned 
businesses in the City of Detroit alone. While many of these businesses 
were single-proprietor or family-run with no paid employees, 146 of 
these small businesses accounted for 1,268 jobs in Detroit.
    This is just one example of the kind of economic engine that 
family-based immigration can be. As people put down roots and become 
part of the American fabric, all of us benefit. Families win; America 
wins.

    Ms. Lofgren. Thank you, Chairman Conyers.
    In the interest of proceeding to our witnesses, and mindful 
of our schedules, I would ask that other Members submit their 
statements for the record within 5 legislative days. And, 
without objection, all opening statements will be placed in the 
record.
    Without objection, the Chair is authorized to declare a 
recess of the hearing at any time.
    We have a distinguished panel of witnesses here today to 
help us consider the important issues before us.
    I am pleased, first, to introduce Dr. Harriet Duleep, a 
Research Professor of Public Policy for the Thomas Jefferson 
Program in Public Policy at the College of William and Mary. 
Dr. Duleep additionally serves as a Research Fellow at the 
Institute for the Study of Labor in Bonn, Germany and the 
Deputy Editor for the publication Demography. Prior to joining 
the faculty of William and Mary, Dr. Duleep worked as an 
Economist at the Social Security Administration and, between 
1985 and 1992, served as a Senior Economist and Acting Director 
of the Research Office of the U.S. Commission on Civil Rights. 
She holds her bachelor's degree from the University of Michigan 
and her Ph.D. from the Massachusetts Institute of Technology.
    We are also joined today by Bill Ong Hing, a professor of 
Law and Asian American studies at the University of California-
Davis. Professor Hing teaches an array of subjects at Davis; 
among them, courses in immigration policy and judicial 
processes. And he directs the law school's clinical program. A 
renowned author, Professor Hing additionally volunteers as a 
general counsel for the Immigration Legal Resource Center in 
San Francisco. He sits on the board of directors for the Asian 
Law Caucus, the Migration Policy Institute, and the National 
Advisory Council of the Asian-American Justice Center. 
Professor Hing served as co-counsel in the precedent-setting 
1987 Supreme Court asylum case, INS v. Cardoza-Fonseca. He 
earned his bachelor's degree from the University of California-
Berkeley and his law degree from the University of San 
Francisco.
    Next, I am pleased to welcome Stuart Anderson, the 
executive director of the National Foundation for American 
Policy. From 2001 to 2003, Mr. Anderson served as the Executive 
Associate Commissioner for Policy and Planning and additionally 
as Counselor to the Commissioner at the U.S. Immigration and 
Naturalization Service. Mr. Anderson is no stranger to the 
halls of Congress. He spent nearly 5 years on Capitol Hill 
working for the Senate's Immigration Subcommittee, first under 
Senator Spencer Abraham and then as Staff Director under 
Senator Sam Brownback. He also worked as the Director of Trade 
and Immigration Studies at the Cato Institute here in 
Washington. He graduated with a bachelor's degree from Drew 
University and a master's from Georgetown University.
    And finally, I would like to extend a warm welcome to a 
familiar face, Congressman Phil Gingrey of Georgia's 11th 
Congressional District. Dr. Gingrey was elected to the House in 
2002 after 4 years in the Georgia State Senate. He holds his 
bachelor's degree from Georgia Tech and his medical degree from 
the Medical College of Georgia. Dr. Gingrey practiced medicine 
for 26 years as an OB-GYN and delivered more than 5,200 babies. 
He and his wife, Billie, have four children and five 
grandchildren.
    As Congressman Gingrey knows, each of the written 
statements will be made part of the record in its entirety. And 
I would ask that the witnesses summarize their testimony in 5 
minutes or less.
    These little machines turn yellow when you have 1 minute to 
go. And when your time is up, they turn red. And we would ask 
at that point that you summarize and cease so the next witness 
can begin.
    We will now proceed to question our witnesses and to hear 
from our witnesses. And at the request of the minority and in 
deference to our colleague, we would ask that Congressman 
Gingrey begin the testimony.
    Congressman?

 TESTIMONY OF THE HONORABLE PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Madam Chairwoman, thank you so much. And I 
appreciate the deference in allowing me to go first.
    Ranking Member King, Committee Chairman Mr. Conyers, and 
other Subcommittee Members, friends all, I thank you for the 
opportunity to testify today about the role of the family in 
the immigration process.
    And as Chairwoman Lofgren stated, my full comments will be 
submitted for the record, and I will just summarize.
    The Chairman of the full Committee, Mr. Conyers, was just 
talking about how important family unification is, how 
important families are to our society. And I agree with him 
completely on that, no question about it.
    People do come here not only to support themselves but to 
support their families. And I think we can do that, and I think 
the bill that I have introduced in this 110th Congress, H.R. 
938, the Nuclear Family Priority Act, does just that.
    But I think that the problem that we have gotten into--and 
I really believe that this started in 1965, and the 1965 act 
that put an emphasis on family reunification--in the first 200 
years of our country, we averaged about 250,000 immigrants per 
year into the United States.
    And as Ranking Member King pointed out in his opening 
remarks, in the last number, I guess in 2006, that had 
ballooned to over a million, 1,100,000-plus. And that is, I 
think, in large part because of this emphasis after 1965 that 
maybe overemphasized or maybe even over-interpreted the real 
definition of family reunification.
    And under the current policy, a single person that comes 
into this country legally, either by virtue of an asylum, or a 
refugee, or a legal permanent resident with a green card who 
comes in because they have been in the queue for a long time--
they have a particular job skill. Not only can they help 
themselves, but they can also help our great country.
    But when they come, then when they achieve citizenship, 
they are allowed to bring family members, but it is not just 
the nuclear family. It is not just their spouse and their 
dependent children from their home country.
    It is not just their parents and maybe their spouse's 
parents, but it includes adult brothers and sisters, siblings. 
It includes aunts and uncles and cousins, and whatever the 
legal term, Mr. Chairman, is--per stirpes--I think that is used 
a lot. I don't know how far out that goes.
    But I do know that as a result of that, one person, one 
person who is in this country legally, who deserves that 
opportunity to be here in one of these three categories that I 
mentioned, over a period of as short as 15 years, they can 
literally bring in an additional 273 people, and all these 
aunts and uncles and cousins and thirds and whatever--273 
people, Madam Chairwoman, who may have great job skills, but 
they may not.
    And statistics, I think, pretty much bear this out, that 
many, many don't. In fact, many have very little education and 
become high school dropouts when they come into this country 
and are not productive and don't have any particular job 
skills.
    So when you think about the fact that we have a huge 
problem in this country, and that is called 12 million--
``undocumented'' is a euphemism. ``Illegal'' is the actual 
fact.
    I know Mr. Gutierrez is working very hard trying to solve 
that problem along with our colleague Jeff Flake in their 
STRIVE Act, and a lot of people in both chambers are working 
very hard to try to deal with that.
    But I think that we can achieve the goal and really the 
spirit of the law as the Chairman of the full Committee, Mr. 
Conyers, said in regard to the value of families with going 
back and doing what, really, we intended to do way back when 
this country welcomed our immigrant population and to say that, 
yes, bring your families, but let's restrict it to the nuclear 
family.
    And instead of 273 people that one individual can bring in 
over the course of 15 years, we reduce that down to 37 in the 
extreme, and this would, in the extreme, mean that each one of 
those that were eligible to come, wanted to come, were still 
alive, and they came.
    I see that magic red light went off quicker than I thought 
it would, but that has got something to do with this Southern 
drawl and slow way of talking. And I will yield back. I have no 
further time, but I really look forward your questions, Madam 
Chairwoman.
    [The prepared statement of Dr. Gingrey follows:]
 Prepared Statement of the Honorable Phil Gingrey, a Representative in 
                   Congress from the State of Georgia
    Madame Chairwoman, Ranking Member King, and members of the 
Subcommittee, thank you for the opportunity to testify today about the 
role of family in the immigration process, specifically the problem of 
chain migration. I introduced legislation last year after learning 
about some of the severe problems of our current system of legal 
immigration that frankly put more emphasis on genealogy than skill, 
English proficiency, and overall contribution to the United States.
    While our borders still need security, our border patrol agents 
still need support, and, dare I say, we still need to find a solution 
to the 12 million illegal aliens currently residing in the United 
States, an often overlooked problem is our flawed system of legal 
immigration and how it may contribute to illegal immigration, drive 
population growth--especially our poor population--and add to our 
assimilation problems. Furthermore, this flawed system adds to our 
nation's financial problems considering that Family-based immigrants 
tend to be the most impoverished and on average have the lowest skill 
levels and earning potential.
    What is even more distressing is that most of these legal 
immigrants are admitted entirely because of their familial relation to 
other legal immigrants. This problem is called Chain Migration and it 
is one of the fundamental reasons why our businesses have problems 
sponsoring legal immigrants, why our federal caseworkers have problems 
with paperwork backlogs, and why our system has become so frustrating 
that individuals outside the United States would rather risk 
immigrating here illegally than wait forever in line. For example, one 
immigrant may qualify for an immediate visa as an adult brother or 
sister of a naturalized U.S. citizen, yet depending on the country of 
application it could be 10 to 40 years or more before that visa is 
available under regular skill-based circumstances. As a result, a third 
of current legal immigrants told a ``new immigrant'' survey that they 
first came here as illegal aliens until their visa came up and they 
then went home to process the paperwork.
    From 1776 to 1976 our immigration tradition allowed an average of 
250,000 foreign workers and dependants every year. However, the 1965 
immigration preference system, and subsequent modifications, including 
the 1990 Immigration Act, expanded immigration levels far beyond 
traditional levels, mostly by prioritizing extended family members. Our 
immigration system is obviously out of kilter when one immigrant can 
yield upwards of 273 other legal immigrants in as short as 15 years, 
assuming the average birthrate of the developing world. It is hard to 
believe one immigrant of skill or humanitarian need could yield so many 
dependants under our laws of family reunification, yet the only limits 
on our current ``chain'' system are age and death. Assuming everyone in 
an immigrant's family wants to immigrate to the United States and they 
are all alive, this 273 number is a real possibly. It may not be the 
norm, but even a fraction of that is a real problem.
    The chain migration categories actually encourage more illegal 
immigration by creating a sense of entitlement to come to the United 
States. Once an extended family member applies for an immigrant visa 
and then is put in the visa waiting list because the categories are 
oversubscribed, the applicant is more likely to decide to come here 
illegally to await the visa. Receipt of the immigrant visa becomes a 
technicality, rather than a prerequisite to entering the United States.
    Furthermore, these numbers do not account for children who become 
citizens through birthright interpretation of our 14th Amendment, which 
can further complicate the problem. In this case, don't just do the 
math, but do the multiplication. For example, in the City of 
Gainesville in Hall County, Georgia, growth in the foreign-born 
population is actually surpassing the natural increase. This is an 
extraordinary rate of immigration. The average level of legal 
immigration into the U.S. since 1990 is over 1,000,000 a year. This is 
equivalent to importing the entire population of Dallas, Texas--or 
Atlanta, Augusta, and Savannah, Georgia combined. This translates into 
backlogs, an overwhelming immigration bureaucracy, and immigration 
employees incentivized to cut corners and put volume over scrutiny. 
Instead, we need to restore our traditional system and levels of 
immigration with emphasis on skill, English proficiency, and the 
nuclear family.
    The U.S. Commission on Immigration Reform, a bipartisan body 
chaired by the late Congresswoman Barbara Jordan, recognized and 
documented the harms caused by chain migration in the 1990s. The 
commission found that America's national interests would be best served 
by the elimination of extended family-based immigration categories as 
well as the visa lottery; and it urged that nuclear family members--
spouses and minor children--become the sole family-based priority. In 
other words, one of the top priorities for immigration reform is to 
restore emphasis on nuclear families and away from the adult children, 
uncles, aunts, cousins, and distant relatives of the original immigrant 
without regard to job skills or the needs of our country.
    To quote the commission report: A properly regulated system of 
legal immigration is in the national interest of the United States. 
Such a system enhances the benefits of immigration while protecting 
against potential harms. Unless there is a compelling national interest 
to do otherwise, immigrants should be chosen on the basis of the skills 
they contribute to the U.S. economy. The Commission believes that 
admission of nuclear family members and refugees provide such a 
compelling national interest. Reunification of adult children and 
siblings of adult citizens solely because of their family relationship 
is not as compelling.
    With this in mind and in response to our growing immigration 
problem, both legal and illegal, I have introduced H.R. 938, the 
Nuclear Family Priority Act. With passage of my legislation, we can 
reduce a chain of 273--or more--to a chain of 37. That's an 87 % 
decrease in our current system of immigration. The formula is simple: 
the original legal immigrant can only bring his or her spouse, 
dependant children, and parents. Our system of family reunification 
will still remain generous and open, but with enough restraint to keep 
the system fair and balanced for everyone.
    I appreciate your time and consideration. Thank you and I would be 
happy to take any questions from the Committee.

    Ms. Lofgren. Thank you, Congressman. Perhaps we should give 
additional time to witnesses from the South, but we haven't 
taken up that rule yet. [Laughter.]
    Mr. Gingrey. Thank you, Madam Chairwoman.
    Ms. Lofgren. Dr. Duleep?

   TESTIMONY OF HARRIET DULEEP, Ph.D., RESEARCH PROFESSOR OF 
 PUBLIC POLICY, THOMAS JEFFERSON PROGRAM IN PUBLIC POLICY, THE 
                  COLLEGE OF WILLIAM AND MARY

    Ms. Duleep. As has already been stated by our Chairwoman 
and also indicated by Representative King, a widely shared 
perspective is that desirable immigrants are those who rapidly 
adjust to the U.S. labor market.
    From this perspective, employment-based immigrants are the 
clear winners. Employment-based immigrants enter the U.S. to 
fill specific jobs as expressed by an employer's willingness to 
participate in the labor certification process.
    By the very nature of their admission, these immigrants 
have specific skills that are immediately valued in the U.S. 
labor market.
    Upon their entry, their earnings are similar to those of 
U.S. natives of similar schooling and experience, and their 
earnings growth profiles also resemble those of U.S. natives.
    If, however, our goal was to devise a policy to attract 
immigrants who had a high propensity to invest in human 
capital--that is, who are willing to engage in a lot of 
training and schooling--then family-based immigration might be 
a better bet.
    A key characteristic of recent predominantly family-based 
immigrants is a high propensity to invest in human capital. 
This can be seen in their earnings profiles. Earnings growth is 
a sign that human capital investment is taking place.
    Family immigrants have very low initial earnings, but they 
also have extremely high earnings growth. In fact, their 
earnings growth exceeds that of employment-based immigrants and 
of U.S. natives.
    So it is the case that they start low, but they also have 
very high earnings growth.
    We also find that immigrant earnings patterns that are 
characterized by low initial earnings and high earnings growth 
are associated with high rates of schooling, high rates of 
training, and high rates of occupational change.
    Now, one reason the high earnings growth is important is 
that it attenuates concerns about the economic assimilation of 
these immigrants. Yes, they start low, but watch what happens 
over time.
    However, a high propensity to invest in human capital 
yields benefits to the U.S. economy beyond immigrants' own 
earnings growth.
    When demand shifts require new skills to be learned, 
immigrants who initially lack specific skills will be more 
likely to pursue the new opportunities than will natives or 
immigrants with highly transferable skills.
    Employment-based immigrants are already earning what we 
would expect them to earn on the basis of their schooling and 
education, so they would be unlikely to take a huge pay cut in 
order to pursue another line of training or another type of 
career.
    Yet policies that bring in immigrants lacking immediately 
transferable skills, such as family-based admission policies, 
may promote new business formation and new directions in 
existing businesses by providing a labor supply that is both 
willing and able to invest in new skills.
    Thus, family-based admission policies, which bring in 
immigrant lacking immediately transferable skills, increase the 
supply of flexible human capital.
    A labor supply that is willing and able to invest in new 
skills facilitates innovation and accompanying 
entrepreneurship. Tailoring immigration to labor shortages is 
theoretically appealing, but it is extremely difficult to 
practice.
    Yet precisely because they lack specific skills that are 
immediately valued by the U.S. labor market, family-based 
immigrants meet labor market needs in an ongoing flexible 
fashion that contributes to a vibrant economy, which has been 
characteristic of the U.S.
    Family-based policies, as opposed to policies to fill 
short-run skill needs, also nurture immigrant entrepreneurship. 
Empirically, my co-author Mark Regets and I find a high 
correlation between sibling admissions and immigrant 
entrepreneurship.
    Moreover, there is evidence that immigrant communities that 
are fostered by kinship admissions lead to the development of 
businesses that would not otherwise exist.
    Because of their high propensity to invest in human capital 
and their effect on immigrant entrepreneurship, family-based 
immigrants pursue or foster employment opportunities that are 
distinct from the employment opportunities of U.S. natives.
    This suggests that family-based immigrants may compete less 
with U.S. workers than employment-based immigrants. And there 
is some empirical evidence on this.
    In a study that was done by Elaine Sorensen of the Urban 
Institute, she finds that immigrants admitted on the basis of 
occupational skills have a small negative effect on the 
earnings of White native males.
    In contrast, family preference immigrants have a positive 
effect on native White earnings and employment and a positive 
effect on native Black earnings.
    Family admissions also fosters permanence. Permanence 
promotes human capital investment. Why invest in human capital 
investment if you are not going to stay here?
    So another way that permanence is productive is that 
historically groups that were permanently attached to the U.S. 
showed greater intergenerational educational progress than 
groups that were less detached.
    From the perspective of increasing intergenerational 
educational growth, policies that encourage permanent 
immigration, such as kinship admissions, should be encouraged.
    To conclude, beyond the obvious humanitarian benefits of 
reuniting families, there may be potential economic advantages 
to family-based immigration.
    Family-based immigrants and, more generally, immigrants 
that do not have skills that are immediately valued by the U.S. 
labor market may benefit the U.S. economy by providing a 
flexible source of human capital, by developing new areas of 
businesses----
    Ms. Lofgren. We need to wrap up, Dr. Duleep.
    Ms. Duleep. Yes--and by promoting permanence, and finally 
by tempering immigrant-native employment competition.
    [The prepared statement of Ms. Duleep follows:]

                  Prepared Statement of Harriet Duleep


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Thank you very much.
    Professor Hing?

TESTIMONY OF BILL ONG HING, PROFESSOR OF LAW AND ASIAN AMERICAN 
            STUDIES, UNIVERSITY OF CALIFORNIA-DAVIS

    Mr. Hing. Thank you, Madam Chair.
    The history of preferring relatives or kinship categories 
actually goes way beyond before 1965. In fact, part of the 
national origins quota system, the preference was for families. 
In 1921, siblings, parents, wives, children were all part of 
the preferences in 1921.
    So when the 1965 act eliminated the national origins quota 
system, it really continued the family preference in our 
immigration laws. So I do want to emphasize that in the 
historical context.
    And I also want to address the allegation of chain 
migration today and some of the racial implications behind the 
proposals to eliminate family categories and some of the 
benefits.
    So after 1965, Asians, for example, were not expected to 
benefit from the 1965 immigration act because, in fact, family 
would favor people who are here in large numbers, and there 
were not a large number of Asian-Americans in the United States 
in 1965.
    So slowly, the employment categories and eventually, yes, 
the family categories were used over time.
    So today, as we know, 90 percent of the immigrants that 
come into the United States are family-oriented. And it is 
rather curious that the attack on families began at a time in 
the 1980's when Latinos and Asians benefit the most from these 
categories.
    So the complaint of being nepotistic, of being vertical as 
opposed to horizontal, are not new. And I was privileged in 
1979 and 1980 to be part of the staff advisory group of the 
Federal Select Commission on Immigration and Refugee Policy 
when, in fact, the family issue was raised again.
    And one of the members of the select commission, Arizona 
Democratic Senator Dennis DeConcini, responded in this manner: 
``Proposals have been offered to eliminate these family 
preferences. It is felt by some to be too generous as it refers 
to horizontal rather than vertical. But to deny that brothers 
and sisters are an integral part of the family is to impose 
upon many ethnic groups a narrow concept of family and one that 
especially discriminates against Italian-Americans. We also 
should stress the rights of U.S. citizens by allowing them to 
bring their families to America. This view should precede the 
technical notion that we need certain types of specialists and 
skilled workers.''
    The select commission itself concluded the reunification of 
families should remain one of the foremost goals of 
immigration, not only because it is a humane policy, but 
because bringing families back together contributes to the 
economic and social welfare of the U.S.
    Benefits from the unification of immediate relatives are 
especially true because family unity promotes stability, health 
and productivity of family members.
    We need not place family reunification in opposition to 
economic and employment visas. There is not an inherent 
tension, as some have claimed. There is only a tension if we 
place them in opposition to each other.
    If instead we view the two systems as complementary ways of 
achieving and reflecting our goals and values as a society, 
then we don't have a problem.
    In other words, if for the sake of argument we use 
immigration to help our economy to promote the social welfare 
of the country and to promote social family values, then family 
and employment categories together can meet those goals.
    One of the things that I do want to emphasize is the 
allegation of chain migration. And if chain migration were as 
hysterical as some claim, then we would see hundreds and 
hundreds of people flowing in from one category.
    But in fact, if you look at the history of how family 
immigration was used, there are times in different nations' and 
nationalities' histories where family reunification is 
completed.
    That is why when it came shortly after the 1965 act that 
European immigration began to ebb. Those decisions are made, 
even today, in Asian immigration categories.
    If you look at the facts, Korean immigration numbers have 
declined. Chinese immigration numbers have declined. The 
demand, believe it or not, for Filipino immigration has 
declined.
    Those hard decisions of when families remain, and which 
ones stay, and which ones go back are made over a period of 
time, and the chain migration that is alleged ends, because 
families make those choices.
    So finally, I would say that this is a Nation of 
immigrants, but this is a Nation that loves to debate 
immigration policy, as we know, but when it comes to families, 
there shouldn't be a debate, because this is about family 
values that we all believe in. Thank you.
    [The prepared statement of Mr. Hing follows:]
                  Prepared Statement of Bill Ong Hing
                              introduction
    The current family-based immigration system should be retained, its 
numbers should be expanded, and a re-orientation of the manner of 
family visas should be instituted so that backlogs are reduced. Why?

        <bullet>  Family reunification promotes strong family values 
        for our nation.

        <bullet>  Family immigration has been the backbone of economic 
        contributions made by immigrants in the last century.

        <bullet>  Reunification with family members gives new Americans 
        a sense of completeness and peace of mind, contributing not 
        only to the economic but also the social welfare of the United 
        States. Society benefits from the reunification of immediate 
        families, especially because family unity promotes the 
        stability, health and productivity of family members.

        <bullet>  Family immigrants generally are working age who 
        immediately become productive taxpayers who immediately begin 
        supporting institutions like the Social Security system.

        <bullet>  Immigrant families often pool their resource to start 
        small businesses that provide new jobs for native workers.

        <bullet>  We risk sending a strong anti-family message if we 
        reduce rather than expand family immigration opportunities.

        <bullet>  The attack on family immigration categories sends a 
        wrong message to communities of color--Asian and Latinos--who 
        rely on the family categories to complete family reunification 
        and stabilize their families.

        <bullet>  Our families make us whole. Our families define us 
        and human beings. Our families are at the center of our most 
        treasured values. Our families make the nation strong.

    Promoting family reunification has been a major feature of 
immigration policy for decades. Prior to 1965, permitting spouses of 
U.S. citizens, relatives of lawful permanent residents, and even 
siblings of U.S. citizens to immigrate were important aspects of the 
immigration selection system. After the elimination of the racist 
national origins quota system in the 1965 reforms, family reunification 
became the cornerstone of the immigration admission system.
    Like his predecessors, Harry Truman and Dwight Eisenhower, 
President John Kennedy assailed the national origins quota system for 
its exclusionary impact on prospective immigrants from southern and 
eastern Europe and Asia. Although President Kennedy's reform goals 
(ultimately pushed through by President Lyndon Johnson after Kennedy's 
assassination) initially envisioned a first-come, first-served 
egalitarian system, the reform effort evolved into a category-oriented 
proposal that was enacted. The 1965 immigration amendments allowed 
twenty thousand immigrant visas for every country not in the Western 
Hemisphere. Of the 170,000 immigrant visas set aside for Eastern 
Hemisphere immigrants, about 80 percent were specified for 
``preference'' relatives of citizens and lawful permanent residents, 
and an unlimited number was available to immediate relatives of U.S. 
citizens. The unlimited immediate relative category included spouses, 
parents of adult citizens, and minor, unmarried children of citizens. 
The family preference categories were established for adult, unmarried 
sons and daughters of citizens (first preference), spouses and 
unmarried children of lawful permanent resident aliens (second 
preference), married children of citizens, and siblings of citizens 
(fifth preference). Third and sixth preferences were established for 
employment-based immigration.
    As Asian and Latin immigrants began to dominate the family-based 
immigration system, somehow the emphasis on family reunification made 
less sense to some policy makers. Since the early 1980s, attacking 
family reunification categories--especially the sibling category--has 
become a popular sport played every few years. Often the complaint is 
based on arguments like, ``shouldn't we be bringing in skilled 
immigrants,'' or ``wouldn't a point system'' be better, or a system 
based on family relationships is ``nepotistic,'' or in the case of the 
sibling category, brothers and sisters ``aren't part of the nuclear 
family'' or the category represents ``vertical as opposed to horizontal 
immigration.''
    By 1976, a worldwide preference system (which included Western 
Hemisphere) quota of 270,000 was in place that continued to reserve 80 
percent for kinship provisions, and the category of immediate relatives 
of the United States citizens remained numerically unlimited. The 
effects of this priority were demonstrated vividly in the subsequent 
flow of Asian immigration, even though nations such as those in Africa 
and Asia, with low rates of immigration prior to 1965, were 
handicapped. In other words, the nations with large numbers of 
descendents in the United States were expected to benefit from a 
kinship-based system, and in 1965, less than a million Asian Americans 
resided in the country. Although the kinship priority meant that Asians 
were beginning on an unequal footing, at least Asians were on par 
numerically, in terms of the per country quotas. Gradually, by using 
the family categories to the extent they could be used and the labor 
employment route, Asians built a family base from which to use the 
kinship categories more and more. By the late 1980s, virtually 90 
percent of all immigration to the United States--including Asian 
immigration--was through the kinship categories. And by the 1990s, the 
vast majority of these immigrants were from Asia and Latin America.
                           attacking families
    Once Asian and Latin immigrants began to dominate the family 
immigration categories, the kinship system was assailed. Consider the 
following attack in 1986:

        Nowhere else in public policy do we say not ``who are you and 
        what are your characteristics?'' but ask rather, as we do in 
        immigration, ``who are you related to?'' Current policy says: 
        ``if you have the right relatives, we will give you a visa; if 
        you don't have the right relatives, well, it is just too bad.'' 
        \1\
---------------------------------------------------------------------------
    \1\ Testimony of Barry R. Chiswick before the Joint Economic 
Committee, Congress of the United States, S. Hrg. 99-1070, May 22, 
1986, p. 236. Of course this statement was factually incorrect; even 
under the system at the time, prospective immigrants with skills needed 
by an employer could qualify for a labor employment category.

    Arguing that the system was nepotistic or that the country would be 
better off with a skills-based system became popular. The following 
like-minded statement also from the mid-1980s about undocumented 
---------------------------------------------------------------------------
migration reveals the racial nature of the complaint:

        If the immigration status quo persists, the United States will 
        develop a more unequal society with troublesome separations. 
        For example, some projections indicate that the California work 
        force will be mostly immigrants or their descendants by 2010. 
        These working immigrants, mostly nonwhite will be supporting 
        mostly white pensioners with their payroll contributions. Is 
        American society resilient enough to handle the resulting 
        tensions.
        . . .

        The American economy will have more jobs and businesses if 
        illegal alien workers are allowed to enter freely and work in 
        the United States. But the number of jobs and businesses alone 
        is not an accurate measure of the soundness of economic 
        development or quality of life. Tolerating heavy illegal 
        immigration introduces distortions into the economy that are 
        difficult to remedy, while imposing environmental and social 
        costs that must be borne by the society as a whole.\2\
---------------------------------------------------------------------------
    \2\ Martin, Philip, Illegal Immigration and the Colonization of the 
American Labor Market, Center for Immigration Studies, 1986, at 45. 
(emphasis added)

    Apparently, this perception of a good ``quality of life'' without 
``environmental and social costs'' is one with minimal tension from the 
presence of ``nonwhite'' ``immigrants or their descendants.'' As an 
observer at the time recognized, ``It may be fair to conclude that the 
problem masquerading as illegal immigration is simply today's version 
of a continuing American--in fact, human--condition, namely 
xenophobia.'' \3\ As in the Asian exclusionary era, the complaints were 
not simply about the economy; they were about keeping people out who 
did not fit the right image.
---------------------------------------------------------------------------
    \3\ Annelise Anderson, Illegal Aliens and Employer Sanctions: 
Solving the Wrong Problem, Hoover Essays in Public Policy, The Hoover 
Institution, Stanford, Ca., 1986, at 21.
---------------------------------------------------------------------------
    From the early 1980s to 1996, the leading voice attacking family 
immigration, especially the sibling category, was Republican Senator 
Alan Simpson of Wyoming. Simpson had been a member of the Select 
Commission on Immigration and Refugee Policy that issued a report in 
1981 calling for major changes in the immigration laws. After IRCA was 
enacted in 1986 to address issue of undocumented migration through 
employer sanctions and legalization, Simpson turned his attention to 
legal immigration categories. At the time, although 20 percent of 
preference categories were available to labor employment immigrants 
(54,000), when the unrestricted immediate relative immigration 
categories were added to the total number of immigrants each year, less 
than 10 percent of immigrants who were entering each year were doing so 
on the basis of job skills.
    In fact, soon after the Select Commission report, Senator Simpson 
proposed the elimination of the sibling immigration category. At the 
core of what became a long crusade, Simpson's complaint was that 
brothers and sisters are not important relatives for immigration 
purposes; that in U.S. culture, the sibling relationship is simply not 
close enough to justify providing an immigration preference. He ignored 
the many experts who testified in hearings before the Select Commission 
stressing the importance of family reunification over employment-based 
visas, including the sibling category. Demographer Charles Keely 
testified that:

        We, as a nation, cannot only accept, but are enriched in 
        countless ways, by traditions which honor the family and stress 
        close ties not only within the nuclear family of spouses and 
        children but also among generations and among brothers and 
        sisters. Attacks on family reunification beyond the immediate 
        family as a form of nepotism are empty posturing.\4\
---------------------------------------------------------------------------
    \4\ SCIRP 1981d:48.

    The Mexican American Legal Defense and Education Fund, the League 
of United Latin American Citizens, the U.S.-Asia Institute, and others 
testified in favor of retaining the category. One organization opposing 
---------------------------------------------------------------------------
Simpson's proposal, The American Committee on Italian Migration, noted:

        For Italians and for many other ethnic groups, brothers and 
        sisters, whether or not they are married, are an integral part 
        of the family reunion concept. Elimination of this preference 
        category would violate a sacrosanct human right of an American 
        citizen to live with his family according to his own 
        traditional life style.\5\
---------------------------------------------------------------------------
    \5\ U.S. Senate Committee on the Judiciary 19a: 19, 170.

    Arizona Democratic Senator Dennis DeConcini, also a member of the 
---------------------------------------------------------------------------
Select Commission, added his voice to the debate:

        Proposals have been offered to eliminate the [sibling] 
        preference. It is felt by some to be too generous, as it refers 
        to horizontal rather than a vertical family concept. . . . But 
        to deny that brothers and sisters are an integral part of the 
        family is to impose upon many ethnic groups a narrow concept of 
        family and one that especially discriminated against the 
        Italian-Americans. We also should stress the rights of U.S. 
        citizens by allowing them to bring their families to America. 
        This view should precede the technical notion that we need 
        certain types of specialist and skilled workers.\6\
---------------------------------------------------------------------------
    \6\ Address in 1978 to the American Committee on Italian Migration, 
reported in Immigration Update National Symposium, New York, 1980.

    In fact, the Select Commission overwhelmingly endorsed the policy 
of keeping brothers and sisters as a preference category.\7\ Proposals 
to eliminate family categories created by the 1965 amendments were to 
be rejected.
---------------------------------------------------------------------------
    \7\ SCIRP 1981a: 119.

        The reunification of families should remain one of the foremost 
        goals of immigration not only because it is a humane policy, 
        but because bringing families back together contributes to the 
        economic and social welfare of the United States. Society 
        benefits from the reunification of immediate families, 
        especially because family unity promotes the stability, health 
        and productivity of family members.\8\
---------------------------------------------------------------------------
    \8\ Select Commission on Immigration and Refugee Policy Report 
(SCIRP): 1981b: 357.

    Simpson did not relent and in the late 1980s at a time when legal 
immigration continued to be dominated by Asians and Latinos even after 
``diversity programs'' were being implemented to aid non-Asian and non-
Mexican immigrants, he wanted the family immigration numbers reduced or 
at least managed. S. 358 was approved by the Senate in July 1989, which 
would establish a ceiling of 630,000 legal immigrants for three years. 
Of the total, 480,000 would be reserved for all types of family 
immigration and 150,000 would be set aside for immigrants without 
family connections but with skills or job related assets. Yet after 
numerous markups and hearings, the House of Representative passed 
Congressman Bruce Morrison's H.R. 4300, a rather different bill, on 
Oct. 3, 1990. The bill actually would reduce family immigration more 
dramatically--thereby reducing the number of Asian and Latino family 
immigrants, providing 185,000 family-based visas and 95,000 employment-
based visas annually.
    The bill was attacked for its wholesale elimination of temporary 
work visas for professionals. The concern was that the spigot actually 
might be closed on foreign workers. Also, the possible elimination of 
H-1 nonimmigrant status for certain professions outraged immigration 
lawyers, who called it a ``must-kill'' provision. Another one of 
Morrison's more controversial suggestions was to tax employers who use 
alien employees. One early proposal required businesses to pay 15 
percent of an alien's salary into a federal trust fund used to train 
U.S. workers. As introduced, the bill would impose a flat user fee 
dependent on the size of the company. After furious negotiations, 
especially with fellow Democratic Congressman Howard Berman from Los 
Angeles, Morrison agreed to drop proposals that would have reduced the 
number of family based visas, persuaded by Berman who argued: ``To cut 
back on the ability of new Americans to be with their family members 
betrays the core American value and tradition of emphasizing the 
integrity of the family.'' \9\
---------------------------------------------------------------------------
    \9\ Stewart Kwoh, Los Angeles Times, Sept. 14, 1989.
---------------------------------------------------------------------------
    As passed, H.R. 4300 would increase the number of legal immigrants 
to 775,000 a year from the prior 540,000. It would also speed the 
process of uniting families, attract more skilled workers and create a 
new diversity category for immigrants from countries whose nationals 
have largely been excluded in the past. After passing the bill, the 
House changed the bill number to S. 358 to enable it to go to a joint 
House-Senate conference. However, many were opposed to the more liberal 
House bill and negotiated to cap legal immigration and place new 
measures to control illegal immigration, including tougher provisions 
against criminal aliens. The House conferees insisted on a sunset cap 
in the bill and wanted extra visas to go to relatives rather than to 
skilled workers. But Senator Simpson refused to agree.
    Enacted on Oct. 26, 1990, the compromise bill would allow 700,000 
immigrants from 1992-94 and 675,000 annually in subsequent years.\10\ 
For the time being, proposals to cut back on family immigration were 
defeated, and the Immigration Act of 1990 had responded to lobbying 
efforts by American businesses. The Act was a significant, and to some 
a revolutionary, revision of the focus of U.S. immigration law. After 
passage of the Act, although the main thrust of immigration law 
continued to be family immigration, highly-skilled immigrations would 
be deliberately encouraged to resettle in the United States more than 
ever before. In the long run, the number of employment based visas 
would nearly triple from 54,000 to 140,000 per year.
---------------------------------------------------------------------------
    \10\ The compromise included portions of S. 3055 sponsored by 
Simpson, which would speed deportations of criminal aliens. Section 501 
expanded the definition of ``aggravated felony'' to include illicit 
trafficking in any controlled substance, money laundering, and any 
crime of violence with a 5 year imprisonment imposed. The bill also 
included both federal and state crimes. Aliens convicted of aggravated 
felonies would have expedited deportation hearings and would not be 
released from custody while in deportation proceedings. 67 IR. 1229-31.
---------------------------------------------------------------------------
    While the Asian- and Latino-dominated family categories were not 
reduced in 1990, an overall numerical cap was installed. Furthermore, 
in the words of Senator Simpson, through the new employment categories 
and expanded diversity programs, ``we [now] open the front door wider 
to skilled workers of a more diverse range of nationalities.'' \11\
---------------------------------------------------------------------------
    \11\ 136 Cong. Rec. S17,109 (daily ed. Oct. 26, 1990) (statement of 
Sen. Simpson).
---------------------------------------------------------------------------
    Up to his retirement in 1996, Senator Simpson fought to eliminate 
the sibling category. On the eve of the 1996 Presidential election, 
Congress reached a compromise on immigration reform relating to 
deportation, asylum, and procedural issues. Until the late spring of 
1996, however, the chance that the immigration legislation would 
include revisions to legal immigration categories was real. Senator 
Simpson again took aim at the siblings-of-U.S.-citizens category and 
the category available to unmarried, adult sons and daughters of lawful 
resident aliens (category ``2B''). The efforts ultimately were not 
successful, and the 1996 legislation did not reduce family immigration.
          the false choice between family and employment visas
    As comprehensive immigration reform is debated today, some 
commentators once again seek to place the family immigration categories 
on the negotiating table. This attack on family immigration is a 
variation on the wouldn't-it-better-to-chose-immigrants-based-on-skills 
theme, by positioning family visas in opposition to employment-based 
visas:

        There is an inherent tension in the immigration system between 
        job and family-based admissions. In allocating visas between 
        family and employment criteria, the goal of family 
        reunification cannot be entirely reconciled with the problem of 
        visas as a scare resource. The answers here are either to 
        accept persistent family migration backlogs or limit the scope 
        of family migration to nuclear, instead of extended, family 
        relationships.\12\
---------------------------------------------------------------------------
    \12\ Memorandum from Doris Meissner, Nov. 30, 2005 (emphasis 
added).

    Inherent tension? Of course there is only an ``inherent tension'' 
between employment and family-based visas if we choose to accept the 
premise that visas are a ``scarce resource,'' or if we insist on 
pitting the two types of visas as oppositional. If instead we view the 
two systems as complementary ways of achieving and reflecting our goals 
and values as a society, then we don't have a problem of ``tension.'' 
In other words, if, for the sake of argument, we use immigration to 
help our economy, to promote the social welfare of the country, and to 
promote family values, then family and employment categories together 
can meet those goals.
The Labor Force Picture
    Another problem with placing employment visas in opposition to 
family visas is the implication that family immigration represents the 
soft side of immigration while employment immigration is more about 
being tough and strategic. The wrongheadedness of that suggestion is 
that family immigration has served our country well even from a purely 
economic perspective. The country needs workers with all levels of 
skill, and family immigration provides many of the needed workers.
    A concern that the current system raises for some policymakers is 
related to the belief that the vast majority of immigrants who enter in 
kinship categories are working class or low-skilled. They wonder 
whether this is good for the country. Interestingly enough, immigrants 
who enter in the sibling category actually are generally high skilled. 
But beyond that oversight by the complainants, what we know about the 
country and its general need for workers in the short and long terms is 
instructive.
    The truth is that we need immigrant workers of all skill levels 
today, and we will need them in the future. As of 2004, 21 million 
immigrants were in the U.S. labor force, representing 14.5 percent of 
the total labor force. A majority of the immigrant workforce is Mexican 
or from other Latin countries; foreign-born Asians are one-quarter of 
the immigrant workforce. Roughly 6.3 million (30 percent of all 
foreign-born workers) are undocumented workers. This represents about 
4.3 percent of the total U.S. labor force.
    In the last few years, the employment of immigrants actually grew 
while that of native workers was stagnant. This trend is expected to 
continue because without immigrants, demographers project that the 
number of workers between the ages of 25 and 54 over the next few 
decades will decline. This suggests a strong demand for immigrants in a 
broad variety of industries. Immigrants represent 20 to 22 percent of 
farm and non-farm laborers. Mexican-born workers are much more likely 
than native workers to be found in food preparation, building and 
grounds maintenance, construction, and production jobs. The 2001-2003 
recessionary period also represented a restructuring period; immigrants 
were favored in the declining manufacturing industry, as well as in the 
leisure/hospitality and construction areas. Professional business 
services also hired a large number of immigrants, likely due to 
increased global competition.
    Most projections of future immigration suggest that foreign-born 
workers will play a significant role in the growth and skill 
composition of the U.S. labor force. The Bureau of Labor Statistics 
(BLS) projects that the labor force will grow 12 percent (17.4 million) 
between 2002 and 2012, reaching a total of 162.3 million.
    Given projections of slow growth of the native workforce, the 
levels of immigration used in BLS and other projections imply that 
immigrants will remain significant drivers of labor force growth. The 
BLS' most recent projections assume that total immigration, both legal 
and unauthorized, will continue to bring between 900,000 and 1.3 
million people to the country each year until 2012. Barring truly 
restrictionist policy, it is likely that immigrants will continue to 
comprise a significant supply of workers under any legislation that is 
passed. In fact, immigrants have been an important source of labor 
source growth in the recent past, making up 48.6 percent of the total 
labor force increase between 1996 and 2000, and as much as 60 percent 
of the increase from 2000 to 2004.
    These projections imply that an immigrant workforce of 19 million 
is projected to grow to 25 million by 2010, 29 million by 2020, and to 
31 million by 2030. Likewise the share of immigrants in the total labor 
force is predicted to climb from 13 percent in 2000 to 18 percent by 
2030, and then remain little changed through 2050. After 2030, the 
projections indicate little further growth of the immigrant workforce, 
while much of the ongoing growth of the native workforce is implicitly 
being driven by the children of immigrants or the second generation.
    Calculations by the Urban Institute suggest that if no immigrants 
entered the country after 2000, the labor force would be nearly 10 
million workers smaller by 2015 than if immigration follows current 
projections. By 2050, the difference between the size of the labor 
force with immigration and without would be 45 million.
    The skill levels demanded by occupations projected to grow over the 
next several years parallel the educational profile of the labor force, 
suggesting ongoing demand along the skill spectrum. Every two years, 
the BLS publishes projections about the future size and shape of the 
U.S. labor force, and the number of net jobs that will be created or 
lost in each occupation. The latest projections are for the years 2002 
to 2012, and they forecast a slowing in the rate at which the total 
labor force is growing. However, there is substantial variation in the 
fortunes of various occupational workforces.
    Tomorrow's economy will generate demand for jobs that are different 
from today's and the skills that workers need will likewise change. The 
BLS separates out 15 occupations that are projected to have the largest 
numerical growth and another 15 that are projected to experience the 
fastest rate of growth. Immigrants make up a significant share of the 
labor force in many large and fast-growth occupations. Important, the 
BLS further classifies occupations by the degree of skill required for 
the job, showing that there will be a demand for both low and high-
skilled immigrant workers.
    For the forecast large-growth occupations, 11 out of the 15 require 
only short- or moderate-term on-the-job training, suggesting lower-
skilled immigrants could contribute to meeting the demand for these 
types of jobs. According to the 2000 Census data, immigrants were 
overrepresented in 4 of these occupations. Immigrants made up 20 
percent of janitors and building cleaners, 17 percent of nursing, 
psychiatric, and home health aides, 13 percent of waiters and 
waitresses, and 13 percent of cashiers. On the high skill end, 3 large 
growth occupations--general and operations managers, other teachers and 
instructors, and postsecondary teachers--require a bachelor's degree or 
higher and immigrants are especially well poised to contribute to 
these.
    Immigrants are also found in jobs that are expected to be important 
in serving tomorrow's aging population. Seniors are expected to 
increasingly generate demand for medical, home care, and other 
services, many of which require workers with only on-the-job training. 
According to analysis of BLS data, 8 of 15 occupations projected to 
grow most rapidly and several of the occupations projected to have 
largest absolute growth are medical support occupations including 
medical records technicians, nursing and home health aides, registered 
nurses, occupational therapist assistants and aides, personal and home 
care aides, and the like.
    In summary, forecasts of occupational growth suggest that there is 
likely to be continued strong growth in occupations requiring better 
educated workers. There will also be a substantial growth of jobs 
requiring little training and in which immigrants are already well 
represented. Educational forecasts suggest that throughout the next 
decade, immigrants are likely to play an important role in 
restructuring the U.S. labor force.
    The aging of the baby boomer generation will slow labor force 
growth, increase the burden of older, retired persons on younger 
workers, and create a potential drag on productivity growth. Between 
2002 and 2012, persons aged 55 and older are estimated to grow an 
average of 4.9 percent per year, or nearly quadruple the growth rate of 
the overall labor force. The number of workers aged 25-54, in contrast, 
will grow by only 5.1 million workers, or at a rate of 0.5 percent per 
year. These demographic trends slow the rate of growth of the total 
prime-age labor force.
    The aging of the population will change the dependency ratio--the 
number of non-working dependents compared to economically active 
workers. That ratio is expected to rise as the baby boomer generation 
enters retirement and as U.S. fertility rates remain low, leaving a 
greater number of elderly to be supported by each worker. The 
decreasing number of taxpaying workers supporting each retiree will 
strain public assistance programs for the elderly including Social 
Security and Medicare. An infusion of young taxpaying immigrants can 
help address future shortfalls in these programs.
    While the evidence suggests that greater immigration could aid 
elderly assistance programs, it should not be expected to solve the 
problem. Increased immigration can temporarily lessen the Social 
Security and Medicare burden on native workers, but in the longer-run, 
permanent immigrants will also age into retirement. Further, immigrants 
are only 12 percent of the U.S. population and current rates of 
immigration add about 1 million immigrants yearly to an existing base 
of about 34 million.
    Immigration also may boost productivity, because immigrant workers 
tend to be younger and therefore generally more productive than older 
workers, but it is unclear how greatly immigration would need to be 
expanded to significantly enhance productivity. A National Academy of 
Sciences report in 1997 concluded that immigrants generate a small but 
positive boost to the gross national product by generating increased 
returns to capital that are greater than their adverse wage impacts. 
Some evidence suggests that innovation thrives when human capital is 
agglomerated in areas with many specialists and skilled migrants. The 
booming economy of the late 1990s was fueled by historic productivity 
gains, one-third of which came from information technology (IT), and 
foreign workers fueled one-quarter of the IT labor force growth. Also, 
immigrants started about one-third of Silicon Valley's high-tech start 
ups.
    Potential problems created by the aging of the U.S. labor force 
cannot simply and entirely be solved by more immigration, but budget 
and productivity shortfalls at least will generate demand for generous 
numbers of skilled immigrant workers.
    Some might argue that strategies other than immigration could be 
used to meet the country's coming economic needs. For example, the need 
for high-skilled labor could be met in ways other than increasing the 
numbers of high-skilled immigrants allowed into the country. High 
technology jobs could be outsourced to rising centers of technological 
expertise such as Bangalore or other growing hot spots around the 
world. Or the United States could devote greater resources to raising 
the skill level of residents, retraining workers from sunset industries 
and improving the teaching of skills most relevant to the future 
economy of the country's youth.
    Given the dynamic nature of the economy, the uncertainty of any 
attempts to predict the needs of tomorrow's economy, and the limited 
control any government can exert over demographic changes, it is 
difficult to say with any certainty how immigration can or should be 
used to meet the needs of the country's coming labor markets. However, 
it is quite clear that immigration has been an important source of 
labor force growth in the past, and that the skills required of the 
occupations important to the future, in both technology and healthcare 
industries, will likely match reasonably well with the skill profiles 
of immigrants today and the projected skill profiles of future 
immigrants. Immigrants currently play a large role in several of the 
occupations expected to have most growth both in terms of the rate of 
growth or growth in numbers of workers, and can therefore be expected 
to contribute to meeting the future demand of these industries. 
Immigration is not the only answer to the country's future economic 
needs, but it could, and likely will, play an important part in a more 
comprehensive solution.
The Competition Charge
    Immigrant workers have long contributed to the power behind the 
motor of the U.S. economy. However, concerns that immigrants compete 
with native workers to the latter's detriment still abound in the 
public mind. A review of the literature about immigration's impact on 
native wages and job displacement is a starting place to resolve this 
question. But before doing so, any serious observer has to acknowledge 
that immigrants affect the economy in ways that are not reflected by 
wage and job displacement studies. Immigrant entrepreneurship may 
create jobs; immigrants are increasingly associated with further 
openings to trade and other forms of exchange; high-skilled immigrants 
innovate in key sectors of the economy; immigrants make tax 
contributions and receive public services; the presence of significant 
numbers of immigrants in a sector helps make that sector's products and 
services cheaper--and thus more affordable by all consumers; and 
immigrant workers both produce and, in turn, consume goods and 
services--thus having much wider ripple economic effects, including 
creating jobs.
    Most economic competition discussions generally focus on the short- 
and medium-term impacts of immigration. When immigrant workers enter a 
labor market, there may be initial pains to accommodate them, and in 
response to those difficulties, the labor market may adjust, perhaps by 
creating more jobs that immigrants and/or natives could fill, or 
inducing natives to move. However, in the long-term, the impact of an 
immigrant cohort depends on the degree to which immigrants assimilate 
into U.S. society (i.e., become like native workers in terms of the 
skills they have). If they, or perhaps more importantly their children, 
assimilate economically, a given immigrant cohort will tend to make the 
economy larger without putting downward pressure on natives' wages. 
Also, keep in mind the possibility that immigrant employment often 
complements that of native workers.
    Immigrants are an important and growing part of the U.S. labor 
force. Estimates indicate that one of every two new workers in the 
1990s was foreign-born. As a result of these flows, from 1990 to 2002, 
the immigrant share of the workforce rose from 9.4 to 14 percent. 
Immigrants are also disproportionately low-wage workers, comprising 20 
percent of the low-wage population, though they also make up much 
higher proportions in several high-skill occupations and sectors.
    In 1997, the National Research Council concluded that immigration 
had a small effect on the wages of native workers. Evidence showed that 
immigration reduced the wages of competing natives by only 1 or 2 
percent. Effects were also weak for native black workers, a group often 
assumed to be in competition with immigrant workers. Earlier immigrant 
cohorts were more significantly affected: they could expect 2 to 4 or 
more percent wage decline for every 10 percent increase in the number 
of immigrant workers. The report also noted that immigration, as a 
whole, resulted in a net benefit to the economy of between $1 and $10 
billion annually, a small but still significant positive impact. 
Certain groups within the economy, such as those with capital or high-
level skills or those consuming immigrants' goods or services, 
benefited from immigration, even if low-skilled natives stood to lose 
in the process.
    While there is still general agreement that some native groups, 
particularly the high-skilled or those with capital, benefit from 
overall immigration flows, since 1997, the assertion that immigrants do 
not significantly affect natives' wages is now more broadly contested. 
Many studies continue to find no effect or only weak negative effects 
of immigration on low-skilled workers or workers in general. Others 
suggest that newly arriving immigrants do not have a statistically 
significant impact, but the degree to which immigrants substitute for 
natives increases with time spent in the United States. Still others 
contend that the negative wage effects are larger, perhaps on the order 
of a 3 or 4 percent wage decline for competing workers for every 10 
percent increase in immigrants with similar skills. Other the other 
hand, some research found that immigration actually had a slightly 
positive and statistically significant effect on all natives' self-
employment earnings.
    Findings now are contested regarding immigrants' wage effects for 
highly-skilled native workers. Some researchers estimate that 
immigration during the last two decades depressed wages by 4.9 percent 
for native college graduates. In contrast, others have found that high-
skilled immigrants actually raise native wages, for example that a 10 
percent increase in high-skilled immigrants raised native skilled 
workers' earnings by 2.6 percent.
    In essence, the literature indicates that the impact of immigration 
on native workers is an issue that is still up for debate, perhaps now 
more than ever. Some researchers have found divergent, large negative, 
small negative to non-existent, and positive impacts from immigration 
on native relative wages, even among the most vulnerable populations. 
Furthermore, most research has found some job displacement or native 
exclusion within given sectors or cities as a result of immigration, 
but the criticism that many of these studies have looked where they 
would expect to find impacts is a valid one to keep in mind when 
viewing this literature convergence. Certainly, immigration's impact on 
the most vulnerable native workers is increasingly contested ground, 
which makes predicting future impacts doubly difficult.
    In the end, whether or not immigrants actually depress wages or 
displace some workers may be only one consideration within a larger 
policymaking context. Whether the effects are slightly negative, 
somewhat positive, or tend toward zero, they may be far outweighed by 
other effects that immigrants have on the United States. Over and over 
again, we hear the claim that immigrants definitely take jobs away from 
native workers or that native wages are severely depressed by immigrant 
workers. But the empirical data supplies no smoking gun for those 
claims, and in fact, the opposite may be true.
    Without an empirical foundation for attacking the entry of 
immigrants with low job skills, some critics of the current system 
simply argue that there is a better way of doing things. They are not 
satisfied that immigration fills needed job shortages and aids economic 
growth as a result of the entry of ambitious, hard-working family 
immigrants and their children, many of whom are professionals as well 
as unskilled workers with a propensity for saving and investment.
                   the benefits of family immigration
    The economic data on today's kinship immigrants are favorable for 
the country. The entry of even low-skilled immigrants leads to faster 
economic growth by increasing the size of the market, thereby boosting 
productivity, investment, and technological practice. Technological 
advances are made by immigrants who are neither well-educated nor well-
paid as well as by white collar immigrants. Moreover, many kinship-
based immigrants open new businesses that employ natives as well as 
other immigrants; this is important since small businesses are now the 
most important source of new jobs in the country. The current system 
results in designers, business leaders, investors, and Silicon Valley-
type engineers. And much of the flexibility available to American 
entrepreneurs in experimenting with risky labor-intensive business 
ventures is afforded by the presence of low-wage immigrant workers. In 
short, kinship immigrants contribute greatly to this country's vitality 
and growth. They are the ``moms, pops, sons and daughters who open 
groceries and restaurants, who rebuild desolate neighborhoods and 
inspire America with their work ethic and commitment to one another.'' 
\13\
---------------------------------------------------------------------------
    \13\ Family Values, Betrayed, NY Times, Editorial, May 4, 2007.
---------------------------------------------------------------------------
    Beyond the obvious economic benefits of the current system, a 
thorough consideration of the benefits of the family-based immigration 
system must include the psychic values of such a system. The psychic 
value of family reunification is generally overlooked by empiricists 
perhaps due to difficulty in making exact calculations. Yet the 
inability to make such a calculation is no reason to facilely cast 
aside the concept or ignore the possibilities.
    Perhaps as a first step in getting a sense of the unquantifiable 
psychic values of family reunification, we could begin by thinking of 
our own families and what each one of our loved ones means to us. How 
less productive would we be without one or more of them? How less 
productive would we be, having to constantly be concerned about their 
sustenance, safety, or general well being? How more productive are we 
when we know that we can come home at the end of the day and enjoy 
their company or share our days' events with them?
    Ask Ming Liu, a design engineer for a U.S. telephone and 
electronics equipment company from China. Liu was doing fine, better 
than his boss expected, and always had his nose to the grindstone. But 
he became an even better worker after his wife and child rejoined him 
following a two-year immigration process. Liu's productivity 
skyrocketed. His boss observed Liu's personality opening up after his 
family arrived, and Liu came up with a completely new, innovative 
concept that helped the company change direction and increase sales. In 
Liu's words, after his family immigrated, he could ``breathe again.''
    Or ask Osvaldo Fernandez, a former pitcher for the San Francisco 
Giants. He had defected from the Cuban national baseball team, leaving 
his wife and child back in Cuba. After a mediocre first half of the 
1996 season, his wife and child were allowed to leave Cuba and join 
Fernandez in the United States. Overnight, his pitching performance 
radically improved. He attributed this turnaround to reunification with 
his wife and child.
    Consider the Ayalde sisters. Corazon became a U.S. citizen several 
years after she immigrated to the United States as a registered nurse 
to work in a public hospital devoted to caring for senior citizens. 
When her sister Cerissa, who had remained in the citizen, became 
widowed without children, they longed to be reunited--especially after 
Cerissa became ill. Corazon filed a sibling petition, and after years 
of waiting, Cerissa's visa was granted. Corazon felt her ``heart being 
lifted to heaven'' as the sisters reunited to live their lives together 
once again. I think of the Ayalde sisters often in the context of my 
own mother's inability to successfully petition for her sister's 
immigration out of mainland China to be reunited. First there was the 
paperwork for the application, complicated by the difficulty in 
obtaining documents from China. Then there were the backlogs in the 
sibling category, and finally the hurdles of getting travel documents 
out of China in the 1970s. When my mother received word that her sister 
had passed away, the tears she shed were only a fraction of the pain 
she had endured being separated from her sister for decades.
    The truth is that the family promotes productivity after 
resettlement in the United States through the promotion of labor force 
activity and job mobility that is certainly as important--perhaps more 
important--than the particular skills with which individuals arrive. 
Family and household structures are primary factors in promoting high 
economic achievement, for example, in the formation of immigrant 
businesses that have revitalized many urban neighborhoods and economic 
sectors.
    Those who would eliminate family categories contend that family 
separation is a fact of life (sometimes harsh) that we can get over or 
live with. Yes, most of us live without someone whom we love dearly 
either because of that person's death, or because the person lives 
across the country. Yes, we can get over this separation and perhaps 
become as productive as ever. Yet to take this ability to recover and 
place it in the context of immigration and say to someone who wants to 
reunify with a brother, sister, son, or daughter, ``No, your relative 
cannot join you; you cannot reunify with this person on a permanent 
basis,'' is cruel. It visits the burden and challenge of recovery on 
the person unnecessarily. It prevents voluntary choice by adults who 
are capable of making life-affecting decisions relating to very private 
family matters. As such it can affect life-long circumstances that the 
individuals involved should have controlled.
                               conclusion
    I once had a friendly debate over lunch with a retired federal 
immigration judge about the sibling category. He could not understand 
the need for the category because, after all, he loves his sister just 
as much even though she lives in New York rather than next door in San 
Francisco. On further discussion, he acknowledged that he might feel 
differently if she was living in a different country where visa 
requirements made simple visits complicated. Family separation across 
national boundaries must be viewed differently from separation within 
the same country.
    The opponents of the current system that favors many family 
categories contend that unending chain migration has resulted from this 
system. They present a picture of a single immigrant who enters, who 
then brings in a spouse, then each spouse brings in siblings who bring 
in their spouses and children, and each adult brings in parents who can 
petition for their siblings or other children, and the cycle goes on 
and on. Certainly for a period of time, family categories result in the 
arrival of certain relatives. However, the purveyors of the image of 
limitless relatives forget that throughout the course of immigration 
history to the United States, these so-called family chains are 
invariably broken. Thus, although virtually limitless numbers of 
western Europeans have been permitted to immigrate to the United States 
throughout the past two hundred years, at a given point, decisions are 
made--some slowly--by families about who is willing or wants to come to 
the new country and who does not. As a result, immigration numbers from 
western European countries have dramatically fallen off. For example, 
hundreds of thousands of immigrants from the United Kingdom, Germany, 
and Ireland immigrated to the United States in each decade of the first 
part of the twentieth century. The figures continued to be substantial 
for Germans and British nationals through 1970, but then the figures 
diminished significantly after that.
    In reality, the proponents of the chain migration image are simply 
engaging in scare tactics that have serious racial overtones. Their 
proposal to cut off family categories comes at a time when three in 
four immigrants are Latino or Asian. Perhaps most reprehensible is the 
fallacy upon which these attacks are being made. In fact, the picture 
of ever-expanding immigration fueled by chain migration is a 
fabrication. Consider individual countries: the number of Koreans who 
entered in 1988 was 34,000, but by 1993, the figure was reduced by 
half, and in 2004 fewer than 20,000 Koreans immigrated. The number of 
Filipinos who immigrated in 1990 was over 71,000, but by 1993 the 
figure was about 63,000, and around 50,000 by 2004.
    In further twisted reasoning, supporters of family category 
reductions argue that since the categories are backlogged many years 
(especially the sibling category), they should be eliminated because 
they are useless and do not achieve any family values. However, they 
categories certainly are not useless for those who have waited their 
turn and who are now immigrating. And if there is real sympathy for 
those on the waiting list, then providing extra visa numbers for awhile 
to clear the backlog is in order. In fact, that was the recommendation 
of the bi-partisan Select Commission more than a quarter century ago. 
Clearing the backlogs is not novel; in 1962, for example, extra visas 
were made available to clear backlogs for Italian and Greek immigrants. 
Reducing backlogs are more consistent with the broad goals of 
immigration policy and democratic values of best practices in 
governance. Immigration policy helps define the United States in the 
eyes of the world, and relative openness sends a positive message about 
American values and also creates important linkages and opportunities 
for exchange.
    Easing the worldwide backlogs by providing favored treatment for 
Mexican immigrants is also worthy of consideration. Expanded legal 
access for Mexican immigrants has a great capacity to reduce 
unauthorized flows to the United States by addressing the greatest 
source of migration demand. Expanding the number of legal immigrant 
visas to Mexicans or taking Mexican migration out of the worldwide 
quota would increase the number of available worldwide visas to other 
countries, thereby reducing backlogs per se. At a time in world history 
when we need to continue thinking regionally, such a gesture of 
goodwill and understanding to our contiguous neighbor and ally is 
important, giving the need for greater economic and security 
cooperation between historically-linked societies.
    As to the attack on the sibling category in particular, for many 
citizens and residents of the United States, including those of Asian 
or Latin descent, the argument that brothers and sisters are a family 
relationship of limited importance is puzzling. The backlog in the 
sibling category is evidence itself that brothers and sisters are 
important to many families. Many U.S. citizens have filed immigration 
petitions for siblings rather than for their own parents. Parents, the 
older generation, are often deeply entrenched in the country of birth, 
more comfortable in their native surroundings, and reluctant to 
emigrate and face adjustments to a new society as seniors. On the other 
hand, contemporary siblings are more adventurous and eager to emigrate. 
Being of the same generation as the citizen sibling, they, more than 
the parent, often have a closer relationship because they tend to share 
the same goals, interests, and values. Siblings are among the easiest 
immigrants to resettle, and generally become immediate contributors to 
the economy.
    The importance of the sibling category has been long recognized in 
U.S. immigration laws. Section 2(d) of the first quota act of 1921 
stipulated that ``preference shall be given as far as possible to 
wives, parents, brothers, sisters, and children under eighteen years'' 
of U.S. citizens. Preference for brothers and sisters was included 
after World War II because siblings were in many cases the only 
surviving members of families. Thus, this preference for siblings was 
continued in the basic nationality act of 1952. Brothers and sisters of 
U.S. citizens were placed in the same category of importance as sons 
and daughters of citizens. And, of course, in the 1965 amendments, 
Congress signed the sibling preference the highest percentage of 
visas--24 percent.
    The Select Commission on Immigration and Refugee Policy defended 
the family reunification system in its 1981 report:

        The reunification of families serves the national interest not 
        only through the humaneness of the policy itself, but also 
        through the promotion of the public order and well-being of the 
        nation. Psychologically and socially, the reunion of family 
        members with their close relatives promotes the health and 
        welfare of the United States.\14\
---------------------------------------------------------------------------
    \14\ Final Report of Select Commission at 112.

    After all, the system resulted in the entry of ``ambitious, hard-
working immigrants and their children'' who provided a disproportionate 
number of skilled workers with a propensity for saving and 
investment.\15\
---------------------------------------------------------------------------
    \15\ Final Report of Select Commission at 103.
---------------------------------------------------------------------------
    In an era of promoting family values, proposals to eliminate family 
immigration categories seem odd. What values do such proposals impart? 
What's the message? That brothers and sisters are not important? Or (in 
the case of the proposal to limit children of lawful permanent 
residents) that once children reach a certain age, the parent-child 
bond needs not remain strong? Eliminating such categories 
institutionalizes concepts that are antithetical to the nurturing of 
family ties, that ignore the strong family bonds in most families, and 
that should be promoted among all families. Indeed, the proposals send 
a strong anti-family message.
    There is a reason that the preamble to the Universal Declaration of 
Human Rights highlights the unity of the family as the ``foundation of 
freedom, justice and peace in the world.'' Our families make us whole. 
Our families define us and human beings. Our families are at the center 
of our most treasured values. Our families make the nation strong.

    Ms. Lofgren. Thank you.
    Mr. Anderson?

  TESTIMONY OF STUART ANDERSON, EXECUTIVE DIRECTOR, NATIONAL 
                 FOUNDATION FOR AMERICAN POLICY

    Mr. Anderson. Thank you for the opportunity to testify.
    The Bush administration has circulated a document that 
proposes ending the ability of U.S. citizens to sponsor their 
children for immigration if those sons or daughters have 
reached the age of 21.
    One way to look at this is at the personal level. I think 
most Members of Congress would agree they would have a 
difficult time barring the door to their 22-year-old daughter 
while welcoming the immigration of their 19-year-old son.
    Under the draft proposal Americans would also be prohibited 
from sponsoring a brother or sister for immigration, and it 
also would place restrictions on the admission of parents of 
U.S. citizens.
    In essence, as part of a deal to appeal to critics who say 
we should not reward illegal immigrants, we would prohibit 
Americans from sponsoring their own children or other close 
family members for legal immigration.
    This should be rejected as a policy option. Some argue that 
family wait times are too long. This is true. However, the fact 
that there are long wait times simply means that Congress 
hasn't raised the limits in a very long time.
    The answer is not to eliminate categories and guarantee 
that Americans never have a chance to reunite with certain 
loved ones. The appropriate solution is to raise the quotas, as 
the Senate did last year in their bill.
    It is alleged that eliminating family categories would 
reduce ``chain migration.'' However, chain migration is a 
relatively meaningless term because it merely describes what 
has happened throughout the country's history. Some family 
members have come, they have succeeded, and then they sponsored 
other family members.
    Let's suppose one immigrant arrives and takes 6 years to 
become a citizen. They sponsor a sibling, with an 11-year to 
20-year wait. Then that sibling sponsors an adult child with a 
6-year to 14-year wait.
    The time between the arrival of the first immigrant and the 
third immigrant would be between 29 years and 46 years, 
depending on the country, not the continuous onslaught that 
critics allege.
    And all the immigrants would immigrate under legal quotas 
that have been established already by Congress.
    While approximately 58 percent of U.S. legal immigration in 
2005 was family-based, more than half of family immigration was 
the spouses and children of U.S. citizens, which almost no one 
has proposed eliminating.
    Of total U.S. legal immigration in 2005, married and 
unmarried adult children of U.S. citizens accounted for only 2 
percent each, and siblings of U.S. citizens accounted for only 
6 percent.
    In place of certain family categories, the Administration 
and others have discussed instituting a Canadian-style point 
system, which would only admit immigrants who receive enough 
points based on education and other criteria.
    Some say a rationale for a point system is to improve the 
skill level of immigrants. In reality, according to the New 
Immigrant Survey and the Pew Hispanic Center, the typical legal 
immigrant already has a higher education level than the typical 
native. So the rationale for eliminating the family category 
simply isn't there.
    Family members immigrating to support their U.S. relatives 
and caring for children and running family-owned businesses are 
more likely to benefit the United States economically than 
unattached individuals who achieve a certain number of points 
based on criteria designed by Government bureaucrats.
    John Tu, president and CEO of California-based Kingston 
Technology, immigrated to America from Taiwan after being 
sponsored by his sister. When he sold his company, he gave $100 
million to his employees, about $100,000 to $300,000 each, 
using the philosophy to treat employees and customers based on 
Asian family values of trust and loyalty.
    Jerry Yang, co-founder of Yahoo, one of America's top 
companies, came to the country at the age of 10. He says Yahoo 
would not be an American company today if the United States had 
not welcomed him and his family 30 years ago.
    U.S. employers want to recruit and hire specific skilled 
individuals, not skilled people in general. The most effective 
policy to promote skilled immigration is to exempt from the 
current quotas employer-sponsored immigrants with a master's 
degree or higher.
    In addition, Congress can raise the quotas for H-1B 
temporary visas and green cards and eliminate per-country 
limits for employment-based immigration.
    This is the package of reforms the Senate approved last 
year when it passed Senator John Cornyn's skill bill as part of 
the larger immigration bill, and Congress can simply return to 
those key reforms made in that bill rather than engage in 
wholesale reform of the immigration system.
    Denying U.S. citizens the ability to sponsor adult 
children, parents or siblings is both unnecessary and 
politically divisive. The bill the Senate passed last year 
raised quotas for both family and employment-based immigration, 
and Congress can do so again this year.
    Thank you.
    [The prepared statement of Mr. Anderson follows:]
                 Prepared Statement of Stuart Anderson


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Thank you.
    Thanks to all of you for your testimony.
    We will begin our questioning now, and I will start off on 
that point.
    I would like to ask you, Mr. Anderson, if you could 
comment. Congressman Gingrey has described a situation where 
aunts and cousins immigrate, ending up with 273 people per 
employment immigrant. Can you comment on that?
    Mr. Anderson. Yes. I think the example that I gave is more 
typical of what would happen even under sort of a tight 
situation, in which it would take 29 years to perhaps 50 years, 
depending on the country, for even getting from the first to 
the third immigrant.
    So again, I am sure Dr. Gingrey, put the numbers out there 
in good faith. I am just not sure how you would get numbers of 
that magnitude.
    And also, any numbers you would have would have to come in 
under the quotas that Congress has already legislated.
    So I think that the whole idea of chain immigration, not 
specifically the example the Congressman gave, is meant to 
conjure up these hordes of people, you know, coming into the 
country one after another, when what you are really talking 
about is many, many years from going from one to the second to 
even the third family member.
    If, as Mr. Hing talked about, even if there is a decision 
made to----
    Ms. Lofgren. So that couldn't--well, I mean, it could 
happen over time, but Congress currently is controlling that 
through controlling the numbers per category per year.
    Mr. Anderson. Right. There are some particular categories. 
And again, I just think the term, you know, gets to be a little 
misleading.
    Ms. Lofgren. Mr. Hing, you have testified about the history 
of this whole situation. The Department of Labor has actually 
told us, and we have received testimony today, that immigrants 
have a much higher rate of entrepreneurship than native-born 
Americans, and that a large majority, they say, of immigrant-
owned businesses in the U.S. are individual proprietorships and 
family proprietorships.
    I am wondering whether, if we were to accept the 
immigration proposal to dramatically reduce the impact or 
permission of family-based immigration, would this have an 
impact on the small-business development in the United States, 
in your professional judgment?
    Mr. Hing. Absolutely, Madam Chair. The people that would be 
prevented from coming in are those that are starting small 
businesses. And as all of you know, most of the employment 
creation in the United States is done at the hands of small-
business owners.
    And so, those that we would be preventing from coming in 
are the moms and pops, and sons and daughters, and brothers and 
sisters who actually represent the spirit of entrepreneurship, 
who go into dilapidated neighborhoods and demonstrate the work 
ethic that all of us are very proud of.
    Ms. Lofgren. Congressman Gingrey, we do appreciate your 
willingness to spend time with us. I know all of us have very 
busy schedules, and it is a great gift to us that you would 
take time out of your schedule to be here.
    In looking at your testimony, I see that it would basically 
eliminate the ability of United States citizens to petition for 
their adult children and siblings.
    And I guess all of us bring to our legislative task our own 
personal history. I have a 22-year-old son in addition to a 25-
year-old daughter. I am wondering how eliminating my ability as 
a U.S. citizen to bring my 22-year-old son here is consistent 
with our sense of family values in America.
    Mr. Gingrey. Madam Chair, in regard to limiting your 
ability to do that, certainly your adult, 21-, 22-, 35-year-old 
brother or sister, who may be from your native country and 
still there--an opportunity to be in the queue to come into 
this country as a legal permanent resident--and they have that 
opportunity. And they still have that opportunity.
    I want to respond to the gentleman, Mr. Anderson. He talked 
about these hordes of people that Congressman Gingrey referred 
to, and I want to, for the record, just--and I will be glad to 
give Mr. Anderson a copy of this.
    This is the hordes of people, Mr. Anderson, under the chain 
migration policy that now exists and how the 273 in the 
extreme, over a 15-year period, get here. Many of them may have 
great skills, but a lot of them have very little skills.
    Ms. Lofgren. Well, if you will give that to Mr. Anderson, I 
am sure he would appreciate looking at it. Somebody may ask him 
about that.
    And I see my time has expired. I would just say that, in my 
judgment, turning 21 is not a valid criteria for separating 
parents from their children. But that is just my opinion.
    The Ranking Member is now recognized for his 5 minutes.
    Mr. King. Thank you, Madam Chair.
    First, I would reflect with Congressman Gingrey, 5,200 
babies, that would be a baby a week for a century, so you must 
have been busy some of those weeks. And that is quite an impact 
on society, and I compliment you for that.
    I would ask you if you could make some more expansive 
comments on the 273. It is my understanding that that actually 
could be significantly larger, but the spreadsheet just didn't 
accommodate going beyond this to other generations.
    And also, the cultural question of--I mean, I look across 
at my family, at many of the families that I know, my 
relation--we are scattered all over the country and other 
places in the world. And we stay in contact through e-mail and 
a lot of other ways, and we travel and have family reunions to 
get together. That is the American family. The American family 
is dispersed.
    And so, isn't it reasonable to expect that people that 
arrive here as immigrants, who would assimilate into this 
culture, might adopt those same kind of dispersed family 
values, that we cherish our families, but we also take on our 
responsibilities and make career decisions accordingly?
    Mr. Gingrey. Well, of course, many of the people that come 
into this country are Asian immigrants, are immigrants from 
south of the border, are Latino immigrants, have great family 
values, there is no question about that. They also tend to have 
large families.
    And again, my feeling, my bill that I have introduced, H.R. 
938, the Nuclear Family Priority Act, honors that philosophy. 
And I don't disagree with my co-panelists on that.
    But again, I mean, if you look at these numbers in the 
extreme, and the fact that we already have 12 million illegal 
here, and if each one of them could, by this family 
reunification policy since 1965, in the extreme, bring in an 
additional 273--and it does, in fact--Mr. Anderson mentioned 
that it counts against the quota system.
    Absolutely, so that people waiting in line to come here, 
skill-based applicants, are pushed further and further behind 
in the queue and may never get to this country to bring their 
skills here.
    Mr. King. Thank you, Dr. Gingrey.
    I would then turn to Mr. Hing, and you made a statement 
that there are racial implications behind getting rid of some 
of the family reunification.
    And if we would look across the history of immigration in 
this country, there have always been, of course, racial 
implications, because people come--and I think we really mean 
not so much racial implications as we do national origin 
implications or perhaps ethnic implications.
    But as people come from different places, obviously, they 
bring with them a certain label that their geographic source 
has established with and for them and on them.
    But would it be possible to discuss the kind of policies 
that are being advocated here--the reduction in the amount of 
family reunification, for example--could one do that without 
having racial implications? And how do I do that?
    Mr. Hing. Well, the way you do it is by indicating that you 
are not going to eliminate categories that have the substantial 
effect on particular racial groups.
    Mr. King. But won't that allegation always be made? If we 
change categories, adjust categories or eliminate them, aren't 
there always implications that the allegation can be made by 
persons such as yourself continually throughout this debate? Or 
could you help us find a way not to?
    Mr. Hing. Sure. I will be happy to. The way you do it is by 
having a first-come, first-served system. And if you are 
willing to go that way, then I think the----
    Mr. King. Okay, but I am interested in putting it on merit 
so that we can have young, skilled, trained people that are 
going to contribute to this economy for a long time. Now, can 
we do that without racial implications?
    Mr. Hing. Sure, we can. We can look at it in two different 
systems, the way we have now--with all due respect to Dr. 
Gingrey, when he stated that labor immigrants are put at the 
back of the line because family--it is two different systems. 
The 140,000 visas for the labor and economics are a completely 
different system. They are handled autonomously.
    So yes, you can handle the labor issue and the employment 
issue separately, as it already is structured, and handle the 
family system separately, as it is handled today.
    Mr. King. Can I ask you to just present a document to this 
Committee that would outline those thoughts on that? I think 
that is going to be really instructive for us, because there is 
friction there.
    And if there is good, clear policy we can do with avoiding 
that friction, I think that would be very constructive.
    Mr. Hing. Yes. There is no reason to put those two issues 
in opposition.
    Mr. King. Okay. Thank you. I am watching the yellow light 
here.
    Another question I wanted to ask you is that pretty much 
the statement has been made here by yourself and a number of 
others about all who come here--I will say this: All who work 
in this economy contribute to the GDP. Would you concede that 
statement?
    Mr. Hing. Sure.
    Mr. King. And then the follow-up to that is--because every 
time someone pays a dollar it gets added. And I agree with 
that. But is there such a thing as nonessential work in this 
economy?
    Does it get to the point where some people work so cheaply 
that people who would otherwise not have someone weed their 
garden or mow their lawn or trim their trees or wash their 
windows, things that they would do themselves, how large a 
sector might that be? How large is the nonessential sector of 
this economy?
    Mr. Hing. I think that everyone who is paid a minimum wage 
contributes to the GDP. There is no debating that.
    Mr. King. Would you concede there is a nonessential sector?
    Mr. Hing. It depends on how you define it.
    Mr. King. Thank you, Mr. Hing.
    Madam Chair, I would yield back.
    Ms. Lofgren. The gentleman's time has expired.
    I turn now to our colleague, Mr. Luis Gutierrez, for his 5 
minutes.
    Mr. Gutierrez. Thank you very much, Madam Chairwoman.
    I guess we are going to have to have at least somewhat of a 
discussion of the concept of family and how people view family.
    And I would just like to ask Congressman Gingrey, I have a 
relative expectation that I live in Chicago, and that my 
parents are in Chicago, and that my children are going to be 
around, and so I decide to live there. This is a decision that 
I make. And I think I am pretty reflective of a lot of 
immigrant communities that tend to live together and tend to 
think of even their jobs and where they are going to go.
    Do you see anything fundamentally wrong with that?
    Mr. Gingrey. I don't think there is anything fundamentally 
wrong with it. I would say that taken to the extreme that it 
hurts our assimilation into our society, and I think it has the 
potential for hurting that community and that family.
    Mr. Gutierrez. I don't understand how it would hurt our 
assimilation. My parents only spoke Spanish. I only spoke 
English. The fact that I was their child actually helped them 
assimilate.
    I am actually different than they are, and my children are 
different than I am. We share some commonalities, but we are 
actually different, in that I had to send my daughter to a 
special school so she would learn Spanish, given that neither 
my wife nor I speak Spanish in our household, yet both of her 
parents spoke Spanish and both of mine did.
    But we have continued to live together. Actually, we have a 
very rich bilingual tradition.
    And I checked with my daughter, and she told me it was 
rather expensive at the university to take Spanish classes and 
that all her friends who come from non-Hispanic families are 
taking Spanish classes because they say it is the great thing 
for the globalization of our economy and our hemispheric 
traditions in terms of our economy here.
    Because Mr. King said that it was bad, that it would stifle 
our economy. I really haven't seen it stifle our economy.
    In Chicago, the second-largest tax stream of city tax 
dollars after Michigan Avenue, the Magnificent Mile, is 26th 
Street in the immigrant community, only followed by the Koreans 
on Lawrence Avenue.
    So if anything, there are large streams of monies coming to 
the city of Chicago from those immigrant communities. And part 
of the basis is they live there because their family is there. 
They have a great tradition of families.
    And so I don't quite grasp this thing, this notion, almost 
as though it is good that people scatter across America. A lot 
of times, people don't want to scatter across America. A lot of 
times, people think it is important that they live together.
    I mean, we don't live in the same neighborhood, but we live 
in the same city, and the proximity of one to another really 
gives us a great deal of stability, gives us a lot of 
stability, because we have obviously a community that we all 
live in.
    And I would just like to follow up on Chairwoman Lofgren's 
point about her children, and I think that in America, Mr. 
Gingrey, as we look at America, more and more, we find that our 
children are coming back to live--not me, but children are 
coming--it is just happening across America.
    And it is not just anecdotal evidence that my friends still 
have 27-year-olds and 28-year-olds and 29-year-olds coming back 
to live with them. The fact is the concept of family even in 
America is changing.
    When I left home at 19, I left home. It was a different 
time. My 19-year-old isn't me when I was 19 years old, nor do I 
want her to be. It is a different time.
    I expect that my kids are going to be around a lot longer 
than I was with my parents, and that, indeed, I was with them 
longer than they were with theirs. It is progress, in many 
senses, that they stick around longer.
    So even if we look at America--that is, those of us like 
you and I that were born here in this country and are native-
born citizens, we find that our children stay with us well 
beyond 21 years of age.
    And there isn't some kind of--how would I say it?--
automatic, or--I am trying to think of the word, Congressman 
Gingrey, but some kind of automatic cutoff when they are 21 
years of age. They continue to be our children.
    I have looked at your chart, and I have to tell you that in 
my practice as being a Member of Congress and having a huge 
immigrant community, it take 100 years before you got to the 
end of that chart. I am serious.
    It just would take--people come here. They become permanent 
residents. It takes 5 years as a permanent resident before they 
can become a citizen.
    The backlogs are between a year to 2 years, so your 
expectation, even if you did it, would probably be about 7 
years. And then you have to stay there. And then it takes 5 
years to become a citizen of the United States.
    I mean, it takes a while. Do you know what the waiting 
period is on your chart for an American citizen sibling in the 
Philippines, for my brother, a brother or a sister? It is 24 
years. For Mexico, for a brother or sister, it is about 14 
years, 15 years.
    So even if you carried this thing out, given the caps that 
we currently have--and I practiced this a lot in the office, 
because I was sharing with Mr. Berman, people came up to me 
when I first got elected to Congress and they said, ``Well, I 
would like to apply for my brother.'' And I said, ``Well, do it 
now. In 13 years, their visa will be available for them.''
    I see them now, and they regret the fact they didn't apply 
for their brother. I mean, it is so long--I am sorry, my time--
it is so long, Mr. Gingrey, I assure you that people don't 
apply for their siblings under this chart because they have no 
realistic expectation that it is going to happen in the scheme 
of things in a prudent amount of time.
    Ms. Lofgren. The gentleman's time is expired.
    Mr. Gutierrez. Thank you.
    Ms. Lofgren. The gentleman from Texas, Mr. Gohmert?
    Mr. Gohmert. Thank you, Madam Chairman.
    And I appreciate the witnesses here today.
    One comment that was made earlier about, you know, the 
United States separating the family--and just in fairness, it 
would seem that whoever it is that decides to leave a family in 
another country and come to this country would be the one that 
make the decision to consciously separate the family.
    I know in this day and time it is good to apparently 
politically beat up on the United States, but I would think 
that, to be fair, whoever decides to leave the family and the 
home makes that first decision.
    Now, one of the things the Chairwoman had started was a 
hearing on the immigration service, and I think it is doing an 
atrocious job of getting applications through their service.
    And that is something I hope we continue to have hearings 
on, because that is so grossly unfair. Any Member of Congress 
that assists people with visas and opportunities to come into 
this country knows we are talking years.
    And my friend, Mr. Gutierrez, makes a good point. I mean, 
we are talking years from so many places.
    But, Dr. Gingrey, you--and I apologize for being late. You 
had mentioned, or someone had referred to your mentioning 273 
as a chain migration, and knowing you, I know you don't just 
toss out information lightly.
    Could you give a basis for getting to that number?
    Mr. Gingrey. Mr. Gohmert, yes, I would be happy to, 
Representative Gohmert. These numbers come from Dr. Robert 
Rector and NumbersUSA.
    Dr. Rector is a fellow at The Heritage Foundation and has 
published a white paper, and I think soon in book form, on the 
fiscal cost of low-skilled households to the United States 
taxpayer. That is where these numbers come from.
    I don't have any reason to believe that the hordes of 
people that Mr. Anderson say do not exist indeed do exist.
    And I will be glad to share this with all the Members of 
the Committee and with my colleagues----
    Mr. Gohmert. Is that part of the record?
    Mr. Gingrey. That is part of the record. It is.
    Mr. Gohmert. Okay. Thank you.
    Mr. Gingrey. And I also want to say, in regard to Dr. 
Duleep--I am sorry, I probably mispronounced--Dr. Duleep, I am 
sorry--in regard to that--but talking about the fact that the 
immigrant families are the ones that are the small-business men 
and women that create the businesses, and that, in fact, family 
reunification policy of bringing people in this country is 
probably better economically for this country than to bring in 
skilled workers, who are waiting in the queue and sometimes 
never get here because of all the others that come before them 
in the queue by virtue of family reunification based not at all 
on their skill level--the statistics that Dr. Rector has 
presented shows that so many of these--probably not the family 
of Representative Gutierrez, but so many of these that come 
under family reunification are either already high school 
dropouts or will become high school dropouts.
    And even if they are working in this country and at a 
decent wage, and paying all of their taxes, which many are, 
they are probably on average, particularly the high school 
dropout category, paying about $10,000, $11,000 worth of State, 
local and Federal taxes and receiving about $30,000 worth of 
benefits.
    So when we start talking about GDP and contribution to this 
economy, those are the numbers that you have to----
    Mr. Gohmert. Well, my time is about out, and I appreciate 
that.
    I would just like to point out--and I know it is not good 
to generalize with respect to national origin or races, but my 
experience with Hispanics in Texas, in east Texas, has been 
that they give me new hope.
    I have seen over the last 40 years a tremendous breakdown 
in the family, in people's belief in the God that was cited by 
our founders, and I find extremely hard-working ethic, intense 
loyalty to families and intense loyalty to God, and I think 
those are three things that have made America great. So I am 
hopeful that that will be the strengthening of America by that 
kind of influx.
    But I am very concerned that we are encouraging a small 
element to come in, have children in our hospital, and then 
start a chain migration of those who are not the most hard-
working people. And any facts that anyone has to support what 
we can do to help our neighbors to the south to promote a good, 
strong middle class I think would be the thing to do.
    But I appreciate you all's testimony.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Berman, the gentleman from California?
    Mr. Berman. Dr. Gingrey, an illegal immigrant arrives here 
on May 8, 2007. Can you tell me the year that the 273rd member 
of his family gets here?
    Mr. Gingrey. Representative Berman, if these statistics are 
accurate, and I feel that they are, then that year would be 
2023.
    Mr. Berman. That is nonsense. I mean, it is impossible. 
There is nothing I have read in what you have passed out that 
would lead me to that conclusion. But let's leave it at that.
    I do want to repeat one point, because you said it several 
times now, notwithstanding Professor Hing's point. The people 
coming here under labor petitions do not--we authorize a 
certain number of those visas every year. They are not 
dependent on what the backlog is or what the petitions are for 
family-based immigration. They are in a separate line. The 
country quotas may have impacts, but the line is a separate 
line from the family-based immigration.
    But I would like to ask--I appreciate very much the 
testimony. Several of you have had a chance--I don't know about 
chain migration, but certainly there has been a chain of 
immigration reform proposals, and at least two of you on the 
panel I have worked with for a very long time on these issues.
    But I would like you to think a little bit outside the box. 
Accepting what you say about the benefits, the values, the 
economic studies regarding legal immigrants--I think we have 
had some mixup here between profiles of people who came here 
illegally and legal immigrants in some earlier comments.
    But what is going on right now is that we are being told 
there is a tradeoff here, for those of us who think the present 
situation with illegal immigration is really a national crisis, 
and we have to deal with it.
    And part of dealing with it is finding a way to change the 
status that the only realistic and the only sensible policy is 
to deal with status adjustment for the 12 million or however 
many it--that we are going to have to deal with this whole 
issue of the existing legal immigration system, the ``problem 
of chain migration.''
    Can you, off the top of your heads, or given the thought 
you have already given to this, create a system of points that 
deals with skills and education and family relationships in 
such a fashion that still maintains many of the strengths of 
the family-based system of immigration, but turns it into a 
context of a point system that might give us something to work 
with as we are faced with a choice of either thinking about 
revising legal immigration or walking away one more time with 
the problem of dealing with, in a sensible, comprehensive 
fashion, the issue of comprehensive immigration reform?
    Do any of you have any thoughts of fundamental adjustments 
that could be made in the present legal structure of 
immigration and a conversion to a point system that could be 
less devastating to the strengths of the current system? And 
would you share them with us?
    Ms. Duleep. One idea would be to follow part of the path of 
Canada, which is they have essentially done away with these 
occupational skills categories where you are filling specific 
gaps, and to reward education per se.
    I feel a little bit uncomfortable with what is more 
valuable to the U.S., a highly educated or a poorly educated 
person. Do we need another highly educated doctor or is it 
useful to the economy to have somebody who helps take care of 
my children so that I can work?
    But given the concern about education levels, that would be 
an alternative path.
    And actually, with Canada, if you compare the Canadian 
system with the U.S. system, before they made this change, they 
had a system that was heavily based on occupational skills, and 
we could find no effect on education levels between comparing 
the U.S. and Canada.
    Ms. Lofgren. The gentleman's time has expired, so if each 
Member could very quickly answer. We are making up for cell 
phone time here.
    Mr. Hing. Well, we actually sort of have a point system 
right now. That is one way of looking at it, is that we 
actually give extra points to certain relatives and extra 
points to people with certain job skills.
    So if you are going to define it as a point system, then I 
would retain a very similar structure in terms of how much 
credit you get for certain kinds of relatives.
    Mr. Anderson. Right. I would say, again, yes, you would 
have to give a lot of points for the family. Ironically, then 
you would actually have this competition between family and 
employment.
    What I would say is that businesses, you know, U.S. high-
tech companies and others, are not clamoring in any way, are 
not asking to have this type of point system. I mean, they want 
to be able to hire specific skilled people. I mean, so it is 
really not clear to me that it is economically beneficial, 
really, in any way to just have a lot of moderately or above-
average-skilled people who are individually coming into the 
country seeking jobs.
    Companies want to hire specific skilled people. So if 
anyone is in favor of helping on this, and they are concerned 
about skilled immigrants, they should be in favor of what 
Senator Cornyn and others have talked about in terms of, you 
know, increasing the employment-based quotas on their own.
    Ms. Lofgren. Congressman Gingrey?
    Mr. Gingrey. Well, just to try to answer it quickly, I want 
to refer back to the comments Mr. Berman made in regard to 
counting against a quota system. In the family reunification, 
spouses and dependent children do not count.
    But when we get into--and I agree, Mr. Berman, this is the 
extreme situation. And you say it would never happen. But in 
1986, when we had 4 million amnesty program, we never thought 
that 25 years later we would have 12 million that came in 
illegally, and that is what can happen in the extreme as well.
    Mr. Berman. But chain migration is a criticism of the legal 
immigration system. It is not about the issue of illegal 
immigrants. Comprehensive immigration reform is trying to fix 
that.
    I have more than exceeded my time.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Gallegly?
    Mr. Gallegly. I am sorry. I just walked in, and I will 
defer to the next in line.
    Ms. Lofgren. The gentleman from California, Mr. Lungren, is 
recognized for 5 minutes.
    Mr. Lungren. Thank you very much.
    I don't think this is an easy issue or an easy question or 
series of questions to answer, frankly. And I started working 
on this issue back in 1979, shortly after we went to the new 
vision of our overall immigration policy.
    But let me just ask this. I happen to be one who has 
supported family unification as a major element of immigration 
policy. But I don't think, really, that is the question. The 
question here is, how far do you extend family preference?
    And I am sorry I was not here to hear all of your 
testimony, but I would just like to ask each of you this. What 
is inconsistent with believing in family reunification in terms 
of nuclear family but making a decision that family preference 
immigration, as we see it, I would say other than spouses, 
ought not to be limited?
    I mean, it seems to me when I hear from people, they seem 
to sense that, yes, it makes sense to have immediate family, 
but as they see it, extended family in terms of family 
preference is going out too far.
    And I would just like the four of you to respond to that, 
please, because that is what I hear from people, and that is 
the sense I have.
    And when I look at what has been suggested of the 
negotiations with the Senate, what the Administration is 
talking about, they are talking about making changes in the 
area of family preference as opposed to immediate relatives.
    Ms. Duleep. Well, I would remind everybody of the point 
that Dr. Hing made, that, in a sense, when we look 
historically, there were not restrictions. And why are these 
restrictions being brought up now? That is one thing to keep in 
mind.
    Mr. Lungren. Can I just respond to that? I mean, look, we 
have millions of people who want to come to the United States. 
So when we make one judgment here that is positive for 
somebody, that is necessarily a negative judgment for somebody 
else in terms of who all gets in.
    So I suppose one of the questions is should the family 
preference beyond immediate relatives be the overriding 
principle behind our immigration policy when we have got to 
realize yes, those folks are getting in, but that presumably 
means other folks are further down the line.
    Ms. Duleep. Well, two things. One, siblings, for instance, 
do have an economic advantage. The effect of siblings on 
immigrant self-employment is larger than any other variable, 
including education.
    Secondly, as we have been trying to state, there doesn't 
need to be a conflict between these two, but there can be 
unintended consequences. One of the interesting findings we 
found from our research is that people come in on the basis of 
occupational skills and people who come in as siblings have a 
positive effect on education.
    And what is happening is that people come in on 
occupational skills and bring in their siblings. If you make 
the U.S. unattractive in terms of that people cannot have their 
families here, you may have an inadvertent effect that was 
unanticipated.
    Mr. Lungren. I didn't say can't have their families here. 
We are talking about extended families.
    Ms. Duleep. No, but you mean siblings, for instance.
    Mr. Hing. Yes. I think, Congressman, this is partially a 
debate over what the nuclear family is, and, you know, I and 
many other people include it to define children that are above 
the age of 21 and brothers and sisters.
    I had a debate with an immigration judge that you may know 
in San Francisco that retired a few years ago, Monroe Kroll, 
over this very issue. And after our conversation, he realized, 
``You know what? I see what you are talking about, because I 
like my sister. She lives in New York. But if she lived across 
an international boundary, I would feel differently.''
    And so that is partly what the debate is. And I think that 
we ought to resolve it in favor of, not an expansion, but 
recognizing nuclear family to include siblings and adult sons 
and daughters.
    Mr. Lungren. Well, in the work done by Dr. Duleep, you 
found that Canadian immigrants are younger and more language 
proficient than their U.S. counterparts. Then you go on to say 
these advantages do not translate into superior earnings power.
    What about language proficiency? Is that irrelevant to 
overall impact of immigration?
    Ms. Duleep. It appeared to be irrelevant comparing Canada 
with the U.S. We also found that English language proficiency--
over time the earnings profiles are very high. So somebody will 
have an initial disadvantage, but that disadvantage disappears 
over time.
    Mr. Anderson. I would say that--what Mr. Hing has talked 
about. There is a little bit of a cultural issue here, where I 
think a lot of ethnic families do consider their brothers and 
sisters and certainly children over 21 a real integral part of 
their families, as well as their parents.
    I also say the numbers really aren't that large. When you 
are looking at the married and unmarried adult children of U.S. 
citizens, you are only talking about 2 percent each of the 
whole U.S. legal immigration system. And for siblings, it is 
only 6 percent.
    And again, it is not really mutually exclusive to increase 
employment-based immigration. In fact, I hope everyone who has 
been criticizing family immigration will come out strongly in 
favor of employment-based immigration, since that seems to be 
the implicit argument.
    And again, companies are interested in hiring specific 
skilled people. I am actually a little concerned. I don't 
really understand why the Administration has decided to come 
out, or at least in theory may be coming out, favoring, really, 
a much more bureaucratic approach rather than something that is 
more family-based or employment centered.
    Ms. Lofgren. We don't want to cut off Congressman Gingrey 
for a quick response.
    Mr. Gingrey. Madam Chair, thank you so much. I really 
appreciate that.
    I just want to point out that my youngest child, my adult 
child, lives in New York. She could just as easily live in 
France or in Mexico. I would see her just as often. She is just 
as much an integral part of my family. She doesn't have to live 
in this country necessarily to be there.
    The doctor at the beginning said, why did we bring up these 
restrictions now? What is the big problem? Well, I will tell 
you. The fact is that we had 250,000 immigrants in 1976. We 
have 1,100,000 in 2006. That is the problem.
    Ms. Lofgren. The gentleman's time has expired.
    And I would note that sometimes I feel the same way about 
my 22-year-old and how often I see him.
    But I would recognize the gentlelady from Texas, Ms. 
Jackson Lee, for her 5 minutes.
    Ms. Jackson Lee. I thank the Chairwoman very much, and we 
are building blocks in terms of the hearings that we are 
having, and I am appreciative of this one as we pursue this 
question of family reunification.
    And I do want to acknowledge the work of the Honorable 
Barbara Jordan, one of the predecessors of my particular 
district, the 18th Congressional District of Texas. And I got 
to know Congresswoman Jordan, and I know that this report that 
she did in a series of reports with the U.S. Commission on 
Immigration Reform was certainly one that she exhibited a great 
deal of commitment and a great deal of passion and a great deal 
of hard work. And I think it is important as we quote from her 
and utilize some of her works.
    There is some points of this I agree with and some I do 
not. But I do think it is important that she started out by 
making it known that we are a Nation of immigrants committed to 
the rule of law and, as well, that the commission that she 
chaired believed that legal immigration has strengthened the 
country and that it continues to do so.
    We here today are trying to find a way to construct an 
effective legal immigration system to work with those who have 
come to this Nation for a variety of reasons. Some of them 
include economic, but also come for reasons of fleeing 
persecution and also fleeing from the devastation of countries 
that they have come from.
    As I read her report, the commission was sympathetic to 
that. They had a variety of proposals that included concerns 
about visa overstaying, concerns about how you do employer 
verification. But at the same time, I think it is important to 
note there was a sense of compassion.
    This commission rejected the concept of amnesty, and I am 
very glad to say that no matter how our opponents try to 
construct the majority's position--and when I say the majority, 
the majority on both sides of the aisle that form the majority 
who want comprehensive immigration reform--it is not amnesty.
    So we build upon that to say that if we are to put a legal 
construct in place, then are we to penalize the legal system 
against those who would engage in that system to be able to 
reunite with their families?
    That is the real question before us. And I do want to put 
before us a New York Times editorial, May 4, 2007, that had a 
quote from the President when he was running for office, George 
W. Bush running for President, and he would always give an 
answer--or here is a particular quote that was given: ``Family 
values do not stop at the Rio Grande.''
    And I realize that as my good friend Congressman Gingrey, 
Dr. Gingrey, has indicated, all of us could get on airplanes 
and visit relatives, wherever they might be.
    But the points have been made that family reunification is 
not easy. It has not been a pathway of celebration and blooms, 
and file one today and you are in tomorrow. It is a tedious, 
long effort.
    I remember going to Chicago with Chairman Hyde at a point 
where we had literally collapsed in terms of the overworking of 
the immigration system. People who were attempting to achieve 
status legally were surrounding immigration offices, around and 
around and around and around. It got to a point where the 
Chairman of the full Judiciary Committee at that time did a 
hearing to confront the crisis that we were facing.
    So I guess, Dr. Duleep, you mentioned the word 
``historical,'' that we did not have a history of denying 
family. Could you just very quickly recount that history for 
us, very quickly?
    Ms. Duleep. Well, we did have a history of denying families 
from particular regions, starting in the early 1920's. The 
national origins act was one where people who could come in was 
based on the percentage distribution of the population by 
various demographic groups, so----
    Ms. Jackson Lee. So when did we change?
    Ms. Duleep. Well, then we got rid of that in 1965. We got 
rid of that to go to more of a family admissions----
    Ms. Jackson Lee. And you believe the basis of moving or 
changing was that we found that that harsh process was not 
effective or was not humane? Or what was the basis of changing 
it?
    Ms. Duleep. I think that it was not humane and that----
    Ms. Jackson Lee. So we made a considered decision based 
upon past history.
    Ms. Duleep. Yes.
    Ms. Jackson Lee. Dr. Gingrey, I notice that your--is this 
your bill, the nuclear family bill?
    Mr. Gingrey. Yes, it is.
    Ms. Jackson Lee. And it limits to the immediate family, and 
I guess my question to you would be would this be forever and 
ever, or would it be until the time that we get a construct in 
place that we have a legal immigration process?
    Because I think to deny and put the structure of a nuclear 
family, which many of us don't come from, would be a serious 
concern. So are you putting a sunset on this, or is this 
forever and ever and ever?
    Mr. Gingrey. Congresswoman Jackson Lee, there is no sunset 
on this, in response to your question.
    But let me just say--and this is quoting from your 
predecessor, the late and great Congresswoman Barbara Jordan, 
and she says it is urged that nuclear family members, spouses 
and minor children, become the sole family-based priority. 
Those are the words of Congresswoman Barbara Jordan. And I 
could go on and quote the commission. But no, there is no 
sunset.
    Ms. Jackson Lee. My time is up.
    Ms. Lofgren. The gentlelady's----
    Ms. Jackson Lee. If I may just finish--one sentence, Madam 
Chair. As I started out, let me say that there are many things 
that the Honorable Barbara Jordan has mentioned. Many of them I 
agree with.
    Others, I believe, in time have changed, and we are now 
looking to answer her concerns, which is a legal construct that 
is humane and is legal for the immigrants that are here in this 
country.
    I yield back.
    Ms. Lofgren. Thank you. The gentlelady's time has expired.
    Before calling on my colleague from California, I will note 
that there are currently limitations on unmarried sons or 
daughters to 23,400 visas a year. So that is the number a year.
    And I was just telling Mr. King that if you have an 
unmarried son or daughter, to visit a U.S. citizen, 99 times 
out of 100 they will not get a visitor's visa as an unmarried 
child because of the intent to reside burden.
    But I would call on Ms. Waters for her 5 minutes.
    Ms. Waters. Thank you very much, Madam Chairwoman. I first 
want to thank you for the intensive work that you are doing to 
help us get to immigration reform. And I appreciate all of the 
hearings that you are holding.
    I was particularly interested in this one, not so much from 
the examination of the White House proposal. I am still focused 
on those undocumented elderly mothers, fathers, grandmothers 
and grandfathers that are in the United States now who are 
increasingly feeling at risk.
    And I am worried about the separation of these parents and 
grandparents from their children and grandchildren with the 
emphasis on deportation that we see all around the country. And 
we will get to that.
    I don't have a lot to say about this White House proposal 
except that I just disagree with it. I am from a huge family. I 
have 12 brothers and sisters. And I have strong family values.
    We don't run around politicizing them and using them as a 
way to get elected to office. We are just people who have 
strong family values. And we don't consider unmarried 21-year-
olds so adult that somehow they don't need us and that they are 
on their own.
    And no, our family values have not changed because of 
technology. No, many of our family members would not be able to 
pick up and run to another country to see our so-called adult 
children.
    And so I just think that the Bush administration proposal 
certainly undermines family values, and it is harsh.
    In addition to the elimination of so-called unmarried adult 
children of both the USCs and the LPRs, this business of 
requiring new applicants from all of those currently waiting in 
the backlog with an additional fee of $500 per person--some of 
these people have been waiting in line for years.
    Why would we do that to them? That is so unkind. And to 
nullify the applications of those who applied after 2004, 2007, 
people who have been waiting in line even for just 3 years or 2 
years, knowing how long it takes, as it has been described here 
today, where people have been waiting 10 years, 12 years, 13 
years, 14 years, 15 years, this is the most unkind, non-family-
valued proposal that could ever be produced.
    And I am hoping that it will be soundly rejected by this 
Congress, because I don't think that anybody who holds family 
values dear could support something like this.
    Now, having said that, I look forward to some protections 
for the longtime residents who happen to be undocumented.
    And to my colleague from Texas who said that the folks who 
left are the ones who should be accused of not having the 
strong family values, I would just say that you know----
    Mr. Gohmert. Would the gentlelady yield? That is not what I 
said.
    Ms. Waters. Well, okay, I am sorry. Maybe I 
mischaracterized what you said. You said don't blame it on the 
United States, blame it on those who separated from their 
families and came here. Is that correctly stated?
    Mr. Gohmert. I said that is who separated from the family.
    Ms. Waters. Okay. They separated. Don't blame it on----
    Mr. Gohmert. But I certainly didn't say that----
    Ms. Waters. Okay.
    Ms. Lofgren. The gentlelady controls the time.
    Ms. Waters. Yes. I am modifying, because I want to be sure 
that I understood what you said. You said don't blame it on the 
United States, they are the ones who separated from their 
families.
    And of course, we don't have to rehash the fact that people 
do seek a better way of life, that poverty will do that, that 
hunger will do that. People who are watching their babies die 
from lack of medicine, lack of food, et cetera, yes, they will 
seek a better way of life.
    And unfortunately, many of them did that, and many of them 
have been here now for 35 years and 40 years, 50 years. They 
have children who were born here. And I am worried about the 
deportation and the separation of families.
    And why, again, do I worry about this so much? Aside from 
having strong family vales, I am an African-American woman who 
comes from slaves, where families were separated for economic 
reasons, where children were sold off, where relatives were 
sent to different parts of the world. And so I feel very 
strongly about this.
    And I want to thank the Chairlady for her sensitivity and 
her focus on this.
    Ms. Lofgren. The gentlelady's time has expired.
    The gentleman from California, Mr. Gallegly, is recognized 
for 5 minutes.
    Mr. Gallegly. Thank you, Madam Chairman.
    Dr. Duleep, when we grant an alien the privilege of 
immigrating to this country, do you believe that there is an 
inherent obligation to eventually allow their entire family, 
extended family, to immigrate?
    Ms. Duleep. No, I think a country can decide immigration 
policy. And I think that is what is being debated here today.
    Mr. Gallegly. No, I just want to get your assessment. Do 
you think that that, granting that privilege, we, as a Nation, 
in your opinion, have an obligation to allow eventually the 
entire family to immigrate?
    Ms. Duleep. I don't have a problem with that.
    Mr. Gallegly. So you would support that thesis.
    Ms. Duleep. Yes.
    Mr. Gallegly. Okay.
    Dr. Gingrey, you know, we heard a lot of numbers bounce 
around, as we always do, and there is that hypothetical 273 
number. Let's forget about the 273 number just for a minute.
    And there is a lot of talk about amnesty. There is a lot of 
talk about comprehensive immigration reform, another code word 
for amnesty.
    Whatever we call it, if we allow 12 million to 20 million, 
depending on what the real numbers are--and none of us really 
know. But let's say that we accept the fact that somewhere 
between 12 million and 20 million people have no legal right to 
be in this country.
    And we are not going to do a blanket amnesty, but we are 
going to find a way to allow them all to stay and find some 
form of legal status, eventually.
    Let's say we forget about the 273 number. But 
hypothetically, I think it would be very realistic that once 
they get that status that they would have probably, in the most 
conservative way, a minimum of probably two per individual that 
have gained status that would have a family member that would 
qualify for reunification or sponsorship or whatever. Is that 
fair?
    Mr. Gingrey. Yes, that is fair. And really, as I pointed 
out earlier in talking to Mr. Berman, yes, this is the extreme. 
This is the extreme situation. But this is Murphy's Law. And we 
all know Murphy's Law. The extreme can happen.
    Mr. Gallegly. But the 273 is extreme. I think that two, 
which would be one-one-hundredth that, would be very 
conservative. Is that a fair assessment?
    Mr. Gingrey. It is.
    Mr. Gallegly. Now, if we take the most conservative number 
of 12 million that are here now, and not even talk about the 20 
million, instead of 12 million coming in under a new form of 
immigration reform status, comprehensive, amnesty, whatever 
word you want to use, that 12 million translates to a 
conservative minimum of 36 million.
    How do we deal with that? How do we reconcile that?
    Mr. Gingrey. Well, without question, Mr. Gallegly, amnesty 
plus family reunification as we now interpret it would, as you 
point out, lead to a minimum of an increase of 12 million to 
30-something million. And I think your math is accurate.
    Mr. Gallegly. Thank you, Madam Chairman.
    I would yield to the Ranking Member, Mr. King.
    Mr. King. Thank you, Mr. Gallegly.
    I had a lingering question for Mr. Anderson. And it had to 
do with a statement that I heard in your testimony about 
immigrants being slightly better educated than native-born 
Americans. And I think that has been historically true for over 
a century.
    But I would ask you, if we provided amnesty or legalized 
the 12 million to 20 million that are here, if you would still 
be able to make that statement, just speaking about that group 
of immigrants--would you then take the position that the 
illegals that are here are slightly better educated than the 
native-born American?
    Mr. Anderson. No. That is not the case. I mean, I do think 
that what Dr. Duleep talked about, that once people--and I 
think there has been studies on this, that once people gain 
legal status, they tend to have a much greater incentive to 
invest in their own skills, because they are going to be here 
for the long term.
    So I think you would see----
    Mr. King. Let me ask you, then----
    Mr. Anderson [continuing]. You would see some of those 
skill levels increase.
    Mr. King. With that point in mind, have you studied the 
Rector study that studies the households that are headed up by 
high school dropouts?
    And I know there is a distinction now between legal and 
illegal and a slightly different impact, but Mr. Gingrey 
referenced that.
    Have you studied that----
    Mr. Anderson. I have looked at it. I haven't studied it, so 
I don't want to comment on whether it is right or wrong.
    Mr. King. Has anyone else on the panel taken a look at that 
study?
    Ms. Duleep. I have read it.
    Mr. King. And do you have any rebuttal you would like to 
offer the panel?
    Ms. Duleep. Well, I think the problem of poorly educated 
immigrants can be a problem, but I think that is particularly a 
problem where you have groups where they don't have permanence 
here, where there is a lot of going back and forth.
    So I think to address that issue that people who come here 
legally or illegally--that permanent communities should be 
encouraged.
    Mr. King. Thank you, Dr. Duleep.
    I would yield back to----
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman from Massachusetts is recognized for 5 
minutes.
    Mr. Delahunt. I thank the Chair for the time.
    As I listen and hear the various perspectives here, you 
know, the definition of a nuclear family and the kind of change 
that is being proposed by Dr. Gingrey--it could conceivably 
have an impact on highly skilled immigrants.
    I would, you know, put forth to all of you--and you, too, 
Phil--that determinations to come to this country, particularly 
if you are a highly skilled worker, could very well be impacted 
by denying an individual the capacity to bring his or her adult 
children to this country.
    I mean, am I making it up? Should we be concerned about 
that? I mean, you know, time after time this Committee has made 
decisions based on H-1Bs, high-tech, where American 
corporations have been aggressively and actively soliciting 
specialized skills.
    I think I, for one, if I had restrictions on who could come 
with me and who could resettle in this country, I would very 
well consider opting for employment elsewhere that is 
available.
    Mr. Gingrey. Mr. Delahunt, if I could respond to that, the 
commission, the Jordan commission--and I quote from that 
report: ``A properly regulated system of legal immigration is 
in the national interest of the United States. Such a system 
enhances the benefits of immigration while protecting against 
potential harm.''
    Unless there is a compelling national interest to do 
otherwise, immigrants should be chosen on the basis of the 
skills that they contribute to the United States economy.
    The commission believes that admission of nuclear family 
members--spouses, dependent children--and refugees provide such 
a compelling national interest. Reunification of adult children 
and siblings of adult citizens solely because of their family 
relationship is not as compelling.
    In response to your question, I would say, Mr. Delahunt, 
that you are much more likely to get a skilled worker, who you 
know their skills when they apply, than just take a potluck 
from a family reunification, some of whom may be skilled but 
many of whom may not be skilled at all.
    Mr. Delahunt. With all due respect to my friend and 
colleague from Georgia, I know that if I had any skills at all, 
and I was living elsewhere, and I had a family where the 
children were of a majority age, and because in the bill that 
you put forth you denied me the opportunity to bring my family, 
I would say, ``Forget it.'' I think we put ourselves in a 
position where we lose something.
    Would any of the other panelists wish to comment?
    Mr. Anderson. Yes. I am not sure we want to set our 
immigration system up to encourage the immigration of somewhat 
skilled people who don't care about their families. I mean, 
that is kind of what we are getting at here.
    I mean, what we really want to--I mean, I just go back to 
this again, that all this talk about skilled immigration--the 
business community, employers, are not in favor of establishing 
some new sort of point system or anything like that. They want 
to have an expansion of the current system. They don't want to 
have a divisive fight over family immigration.
    And they also believe that, you know, when executives come 
here, if their children are over 21, they aren't going to get 
them here, and you are not going to get some of the foreign 
investment that might take place if people know that their 
children aren't going to be able to----
    Mr. Delahunt. Reclaiming my time and going back to my 
friend from Georgia, you indicated 250,000, I think it was in 
1975, and a million now. But these are all legal immigrants, is 
that correct?
    Mr. Gingrey. Correct.
    Mr. Delahunt. So your problem is you think the numbers 
coming into this country in terms of legal immigrants are of an 
order of magnitude that, you know, we don't need in this 
country.
    Mr. Gingrey. Well, correct. And I think the policy of this 
family reunification is basically a come one, come all.
    My friend Mr. Anderson just said that the employers are not 
for us restricting this to skilled workers. Maybe not. Maybe a 
few of the miscreant employers would love to see more and more 
unskilled workers come so they could pay them low wages.
    Mr. Delahunt. Well, again, reclaiming my time, I just 
wonder where our economy would be if we had stayed at that 
250,000 figure as opposed a million legal workers or legal 
immigrants coming into this country now and adding to the GDP.
    Professor Hing? I mean, I think that is the debate we are 
having.
    Mr. Hing. Well, Congressman, you hit the nail right on the 
head, because people would make those decisions to not come, 
and they wouldn't contribute.
    There is a reason why the preamble to the Universal 
Declaration of Human Rights highlights the unity of family as 
the foundation of freedom, justice and peace of the world. It 
is because our families make us whole and our families define 
us as human beings.
    Mr. Delahunt. No, but with all due respect, though, I am 
talking about the economic impact. If over the last 25 years or 
30 years, we did not have the numbers of legal--not illegal or 
undocumented, the legal--immigrants coming into this country to 
provide an adequate workforce, what would have happened? Can 
you speculate in terms of our national economy?
    Ms. Lofgren. The gentleman's time has expired. We will ask 
Mr. Hing to briefly respond.
    Mr. Hing. Right. The number of jobs that have been created, 
top to bottom, construction workers to high-tech, would have 
been decreased and the amount of investment would have been 
decreased in the United States.
    Ms. Lofgren. The gentleman's time has expired.
    And all time is expired. I would like to thank all the 
witnesses for their testimony today.
    And, without objection, Members will have 5 legislative 
days to submit any additional written questions for you, which 
we will forward and ask that you answer as promptly as you can 
to be made part of the record.
    And, without objection, the record will remain open for 5 
legislative days for the submission of any other additional 
materials.
    Our hearing today has helped to illuminate numerous issues 
concerning family and immigration reform. This discussion will 
be very helpful to us as we move forward on comprehensive 
immigration reform this year.
    We have learned in this hearing that family immigrants are 
part of the entrepreneurial picture of the United States and 
that the current immigration system actually tracks family as 
separate from employment-based immigration.
    We know that as we move forward there may be a discussion 
on whether to merge those two lists in a point system so that 
family immigration and employment immigration would instead be 
in competition with each other for visas, and that is something 
that this Committee and the Congress must consider very 
carefully.
    I would like to note also that this, as our eighth hearing, 
has shed much light. And I am actually very optimistic that the 
information that we have learned here will head us to a 
bipartisan comprehensive approach to the issues that face us, 
that make sure that our country continues to prosper 
economically and culturally and socially.
    I would like to extend an invitation to everyone here to 
attend our next hearings on immigration reform. The minority at 
our last hearing requested under the rules an additional 
hearing, which will be held tomorrow in this room at 9 a.m.
    We will have two hearings next week, Tuesday, May 15th, at 
9:30 in the morning and again at 2 in the afternoon. We will 
explore the future of undocumented students and additionally 
the integration of immigrants into American communities.
    And with that, this hearing is adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

  ``Chain Migration Under Current U.S. Law: The Potential Impact of a 
   Single Employment-Based Immigrant'' Chart produced by NumbersUSA, 
submitted to the record by the Honorable Phil Gingrey, a Representative 
                 in Congress from the State of Georgia


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    ``Review and Outlook: Immigration Spring,'' an editorial in the 
                    Wall Street Journal, May 2, 2007

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     Prepared Statement of Members of American Families United and 
                  UniteFamilies, on Family Immigration

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Prepared Statement on Interfaith Family Immigration by 
               American Friends Service Committee, et al.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Prepared Statement of Leslye Orloff, Director and Associate Vice 
   President of the Immigrant Women Program at Legal Momentum, also 
  representing the National Network to End Violence Against Immigrant 
                                 Women

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Letter from the Lutheran Immigration and Refugee Service to the 
    Honorable Zoe Lofgren, Chairwoman, Subcommittee on Immigration, 
     Citizenship, Refugees, Border Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of Karen K. Narasaki, President & Executive 
 Director, Asian American Justice Center on ``The Importance of Family-
        Based Immigration to American Society and the Economy''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

``Admissions of Lawful Permanent Residents (all categories) 2001-2005'' 
compiled by the Congressional Research Service, submitted to the record 
     by the Honorable Steve King, Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 ``Family-Based Admissions 2006,'' published by the U.S. Department of 
Homeland Security, submitted to the record by the Honorable Steve King, 
  Ranking Member, Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Responses to Post-Hearing Questions from the Honorable Phil Gingrey, 
         a Representative in Congress from the State of Georgia



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Responses to Post-Hearing Questions from Harriet Duleep, Ph.D., 
Research Professor of Public Policy, Thomas Jefferson Program in Public 
                Policy, The College of William and Mary

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Responses to Post-Hearing Questions from Bill Ong Hing, Professor of 
     Law and Asian American Studies, University of California-Davis

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Response to Post-Hearing Question from Stuart Anderson, Executive 
           Director, National Foundation for American Policy

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
